<html>
<title> - FACILITY PROTECTION: IMPLICATIONS OF THE NAVY YARD SHOOTING ON HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
FACILITY PROTECTION: IMPLICATIONS OF THE NAVY YARD SHOOTING ON HOMELAND 
                                SECURITY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT
                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2013

                               __________

                           Serial No. 113-40

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
87-184                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana, Vice Chair    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas.............................................     4
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. L. Eric Patterson, Director, Federal Protective Service, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     8
  Joint Prepared Statement.......................................    10
Mr. Greg Marshall, Chief Security Officer, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Caitlin Durkovich, Assistant Secretary, Infrastructure 
  Protection, U.S. Department of Homeland Security, Testifying on 
  Behalf of The Interagency Security Committee:
  Oral Statement.................................................    20
  Joint Prepared Statement.......................................    10
Mr. Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

                                Appendix

Question From Chairman Jeff Duncan for L. Eric Patterson.........    51
Questions From Ranking Member Ron Barber for L. Eric Patterson...    51
Questions From Chairman Jeff Duncan for Caitlin Durkovich........    53
Question From Chairman Jeff Duncan for Greg Marshall.............    53
Questions From Ranking Member Ron Barber for Greg Marshall.......    54
Questions From Chairman Jeff Duncan for Mark L. Goldstein........    55
Questions From Ranking Member Ron Barber for Mark L. Goldstein...    55


FACILITY PROTECTION: IMPLICATIONS OF THE NAVY YARD SHOOTING ON HOMELAND 
                                SECURITY

                              ----------                              


                      Wednesday, October 30, 2013

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:32 a.m., in 
Room 210, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Hudson, Barber, and 
O'Rourke.
    Also present: Representative Jackson Lee.
    Mr. Duncan. All right. The House Committee on Homeland 
Security, Subcommittee on Oversight and Management Efficiency 
will come to order.
    The purpose of this hearing is to examine what the 
Department of Homeland Security is currently doing to protect 
Federal facilities and what steps, if any, need to be taken to 
improve current layers of security, so that incidents such as 
the Navy Yard shooting do not occur in the future.
    Now, this isn't our normal committee room, so we are going 
to work through some things today, I am sure.
    But I will now recognize myself for an opening statement.
    The events that took place on September 16 at the 
Washington Navy Yard, less than 2 miles from where we are right 
now, were shocking and tragic. Twelve innocent lives were lost 
that day, along with several injured. Our thoughts and prayers 
go out to the families of the victims and those survivors and 
the folks that work as co-workers in the Navy Yard.
    While much of the security of this horrific event will 
rightly focus on how someone in Aaron Alexis' mental state was 
able to pass a Governmental background investigation and to 
hold a security clearance, today's hearing will concentrate on 
the physical preventative security measures that are currently 
in place for our Federal facilities.
    How do we control access to these facilities to protect 
both employees and public visitors? What physical security 
measures, if any, can be taken to prevent future tragedies?
    The Federal Protective Service, or FPS, is charged with 
protection of Federal facilities and safeguarding Federal 
employees, contractors, and visitors within those facilities.
    FPS is the primary agency for protecting and securing 
almost 50 percent of the General Service Administration's, or 
GSA's, owned or leased properties. That is about 9,600 
facilities Nation-wide.
    As the front-line personnel charged with the daily safety 
of Federal employees and visitors, it is crucial that this 
workforce is adequately trained and prepared to respond at 
moment's notice.
    I strongly support the public/private partnership model 
that DHS uses with the contract guard force. Having private 
guards can increase the accountability for the taxpayer, but 
DHS cannot be deficient in its management responsibilities and 
must deploy the right number of guards, based on risk.
    Unfortunately, according to the Government Accountability 
Office, or GAO, report that was released today, the Federal 
Protective Service has many weaknesses with the oversight and 
management of the guard program.
    For example, FPS continues to lack effective management 
controls to ensure that all guards have met their certification 
and training requirements.
    GAO has previously urged FPS to develop a management 
control system to document and verify training in reports 
submitted to Congress in 2010 and 2012, but FPS has yet to 
implement this recommendation.
    Without such a system, how can FPS know and ensure that its 
guard force is sufficiently trained?
    It seems common-sense to me that FPS should be able to 
verify that its guards are trained and certified properly, 
especially when others trust and rely on FPS guards for their 
protection.
    One of the most shocking findings in the most recent GAO 
report is FPS' inadequate approach to active-shooter scenarios.
    From the Holocaust Museum shooting in 2009 and the Navy 
Yard shooting to the most recent Federal courthouse shooting in 
Wheeling, West Virginia, in October, examples exist of the risk 
FPS and facility guards must confront from active-shooter 
scenarios. While FPS does require its guard force to receive 
training on active-shooter situations, it is unclear how this 
training is conducted and for what length of time.
    GAO also noted that not all guards receive this training, 
and, even for those that have, it is unclear how their contract 
guards are expected to respond to an active shooter.
    According to DHS, if an active shooter is not in a guard's 
line of sight, that guard's actions are then dictated by his or 
her post orders. So, does that mean that if an active shooter 
is in the building, killing innocent people, an armed guard is 
not allowed to assist until Federal or local law enforcement 
arrive at the scene?
    If this is the case, then DHS' bureaucratic process is 
putting lives at risk.
    The American people need to know how these guards can 
protect them in life-threatening situations, and I am looking 
forward to DHS providing clarity on this issue today.
    As an additional layer of security, Federal employees are 
required to carry valid identification credentials for 
admittance into Federal facilities. As a Federal Government 
contractor, Aaron Alexis had valid identification, which gave 
him access to the Naval Sea Systems Command headquarters, and 
that enabled him to pass through security.
    While some buildings only require an ID to be used as a 
flash pass or visually inspected, other facilities require 
verification by use of a credential access control system, or 
swiping of the card.
    Although the second scenario may provide higher security 
against individuals using fraudulent or expired and flagged 
credentials, it was discouraging to learn from my staff that 
DHS officials informed them that the department currently is 
not aware of the type of access control systems in place across 
DHS facilities.
    How, after 10 years, does the Department not have a handle 
on what measures are in place to secure their own employees, 
let alone the general public, at Federal facilities?
    I want to know precisely what DHS is doing to obtain this 
information and when it will have a full and complete grasp of 
the issue.
    Considering the heinous events which took place just close 
by at the Navy Yard, it is important to ensure that the 
security framework in place at our Federal facilities is strong 
and effective.
    The Federal Protective Service and its contract guard force 
put their lives on the line every day on a daily basis to 
protect the American people, and I want to thank them for their 
service and the tremendous amount of heroism that was exhibited 
in the Navy Yard.
    I hope this hearing can serve as an opportunity to assess 
the state of physical security across Federal facilities and 
what DHS must do to improve the protection of employees and 
visitors to these facilities and prevent future tragedies as we 
recently witnessed.
    [The statement of Chairman Duncan follows:]

                   Statement of Chairman Jeff Duncan
                            October 30, 2013

    The events that took place on September 16 at the Washington Navy 
Yard--less than 2 miles from where we are right now--were shocking and 
tragic. Twelve innocent lives were lost that day along with several 
injured.
    While much of the scrutiny of this horrific event will rightly 
focus on how someone in Aaron Alexis's mental state was able to pass a 
Government background investigation and to hold a security clearance, 
today's hearing will concentrate on the physical preventative security 
measures that are currently in place at our Federal facilities. How do 
we control access to these facilities to protect employees and public 
visitors? What physical security measures, if any, can be taken to 
prevent future tragedies?
    The Federal Protective Service (FPS) is charged with the protection 
of Federal facilities and the safeguarding of Federal employees, 
contractors, and visitors within those facilities. FPS is the primary 
agency for protecting and securing almost 50% of the General Services 
Administration's (GSA) owned or leased properties. That's about 9,600 
facilities Nation-wide. As the front-line personnel charged with the 
daily safety of Federal employees and visitors, it is crucial that this 
workforce is adequately trained and prepared to respond at a moment's 
notice.
    I strongly support the public-private partnership model DHS uses 
with the contract guard force. Having private guards can increase 
accountability for the taxpayer but DHS cannot be deficient in its 
management responsibilities and must deploy the right number of guards 
based on risk.
    Unfortunately, according to a Government Accountability Office 
(GAO) report that was released today, the Federal Protective Service 
has many weaknesses with the oversight and management of their guard 
program. For example, FPS continues to lack effective management 
controls to ensure that all guards have met their certification and 
training requirements.
    GAO has previously urged FPS to develop a management control system 
to document and verify training in reports submitted to Congress in 
2010 and 2012, but FPS has yet to implement this recommendation. 
Without such a system, how can FPS know and ensure that its guard force 
is sufficiently trained? It seems common-sense to me that FPS should be 
able to verify that its guards are trained and certified properly--
especially when others trust and rely on FPS guards for their 
protection.
    One of the most shocking findings in this most recent GAO report is 
FPS's inadequate approach to active-shooter scenarios. From the 
Holocaust Museum shooting in 2009, and the Navy Yard shooting to the 
most recent Federal courthouse shooting in Wheeling, West Virginia in 
October, examples exist of the risks FPS and facility guards must 
confront from active-shooter scenarios.
    While FPS does require its guard force to receive training on 
active-shooter situations, it is unclear how this training is conducted 
and for what length of time. GAO also noted that not all guards 
received this training, and even for those who have, it is unclear how 
their contract guards are expected to respond to an active shooter.
    According to DHS, if an active shooter is not in a guard's line of 
sight, that guard's actions are then dictated by his or her post 
orders. So does that mean that if an active shooter is in the building, 
killing innocent people, an armed guard is not allowed to assist until 
Federal or local law enforcement arrive at the scene? If this is the 
case, then DHS's bureaucratic process is putting lives at risk. The 
American people need to know how these guards can protect them in life-
threatening situations. I am looking forward to DHS providing clarity 
on this issue today.
    As an additional layer of security, Federal employees are required 
to carry valid identification credentials for admittance into Federal 
facilities. As a Federal Government contractor, Aaron Alexis had valid 
identification which gave him access to the Naval Sea Systems Command 
headquarters which enabled him to pass through security.
    While some buildings only require an ID to be used as a ``flash 
pass'' or visually inspected, other facilities require additional 
verification by use of a credential access control system, or 
``swiping'' of the card. Although the second scenario may provide 
higher security against individuals using fraudulent or expired and 
flagged credentials, it was discouraging to learn from my staff that 
DHS officials informed them that the Department currently is not aware 
of the type of access control systems in place across DHS facilities.
    How, after 10 years, does the Department not have a handle on what 
measures are in place to secure their own employees, let alone the 
general public at Federal facilities? I want to know precisely what DHS 
is doing to obtain this information and when it will have a full grasp 
of this issue.
    Considering the heinous events which took place at the Navy Yard, 
it is important to ensure that the security framework in place at our 
Federal facilities is strong and effective.
    The Federal Protective Service and its contract guard force put 
their lives on the line on a daily basis to protect the American 
people, and I thank them for their service. I hope this hearing can 
serve as an opportunity to assess the state of physical security across 
Federal facilities and what DHS must do to improve protection of the 
employees and visitors to these facilities and prevent future 
tragedies.

    Mr. Duncan. The Chairman will now recognize the Ranking 
Member of the subcommittee, the gentleman from Texas who is 
sitting in for the Ranking Member, Mr. Barber. But the 
gentleman from Texas, Mr. O'Rourke, is recognized for an 
opening statement.
    Mr. O'Rourke. Thank you.
    I want to thank Chairman Duncan for calling and organizing 
today's hearing.
    I want to thank the witnesses for their testimony, in 
advance, and I want to thank them in advance for answering our 
questions.
    I want to thank the committee staff from both sides for 
doing all the leg work to get us ready for today.
    I also want to extend my condolences to the families and 
survivors from those horrific events last month.
    I know that any time there is a hearing like this or the 
issue reappears in the news, that has to open up those memories 
again, and must cause some additional pain and heartache for 
those who are involved.
    So I want to make sure that we use today's hearing to learn 
what we can from what took place, and to apply those lessons to 
ensuring or trying to ensure that we don't have a repeat of 
this event at a Federal facility in the future.
    I also want to make sure that we are proportionate in our 
response to what we learn. As the Chairman said, we want to 
have the right number of guards proportionate to the risk that 
we understand to take place.
    These are, after all, public buildings. We want to make 
sure that we don't so fortify them that we exclude the public, 
that we create an impression that the public is not welcome, 
that we make it unduly difficult for people to access 
Government, to receive the services that they are paying for. 
They should have the right to expect to access.
    I also hope that we will be able to explore the true cost 
of contracting services, using contractors versus dedicated 
civil servants or professionals who are in those jobs for their 
careers. There is a balance that we have to strike in terms of 
cost savings and efficiencies versus some level of 
dependability and building a culture that might, in fact, 
ultimately prevent these kinds of activities in the future.
    I hope that, in closing, and I want to be brief because I 
want to get to the testimony from our witnesses, I hope that we 
use what we learn from horrific events like these--and 
unfortunately there are far too many over the last few years--
to strike that right balance in all of those areas.
    So I look forward to the testimony, to applying those 
lessons, to the Chairman's leadership in making sure that we 
strike that balance. With that, I will conclude and yield back 
to the Chairman.
    Mr. Duncan. I thank the gentleman from Texas.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statements of Ranking Members Barber and Thompson 
follow:]
                 Statement of Ranking Member Ron Barber
                            October 30, 2013

    Thank you, Chairman Duncan, for holding this very important hearing 
to examine how extensively standards for Federal facility security are 
being followed to ensure the safety of Federal personnel and visitors 
to these buildings.
    Across the country, we are experiencing a rise in attempts by 
individuals to shoot at or otherwise attack Federal facilities, and it 
is both timely and critical that we hear today from Department 
officials and other witnesses about the efficacy of the standards put 
in place by the Interagency Security Committee to protect our people as 
well Federal facilities.
    In addition to my own personal experience as the unintended victim 
of a shooting incident, we seem to get all-too-frequent news reports of 
attempts by mentally unstable or disgruntled individuals who open fire 
at Federal facilities.
    I will be interested to hear today from the witnesses how effective 
they think the Interagency Security Committee has been to date not only 
in establishing a set of physical security standards, but also in 
providing enough guidance to Federal agencies and departments to 
increase their adoption of these standards.
    It is not sufficient to issue standards--it is also incumbent upon 
the Interagency Security Committee and the Federal Protective Service, 
or FPS, as the implementing agency to make sure that Executive branch 
agencies understand how the Government's standards for physical 
security can best be utilized.
    In the Government Accountability Office or GAO report issued at 
Ranking Member Thompson's request in January, GAO states that the 
Interagency Security Committee's standards are frequently the second 
choice of Federal physical security managers after their own 
institutional knowledge.
    This is a troubling finding by GAO, and given the recent uptick in 
attempted shootings at Federal facilities, it is incumbent upon all of 
us to assist the Interagency Security Committee in strengthening its 
outreach and guidance regarding its standards for the safety of all 
Federal personnel and visitors.
    In addition, GAO states in their testimony that Federal facility 
security is further jeopardized by FPS' on-going mismanagement of its 
contract guard force, and alarmingly, but the agency's failure to 
ensure that its guards receive the required active-shooter response 
training that would best prepare them to protect Federal facilities.
    Further, GAO's testimony indicates that FPS and several other 
Federal agencies are not currently using an appropriate methodology to 
assess risk at Federal facilities which only increases the 
vulnerability of those who work in or visit Federal buildings. I look 
forward to hear the witnesses address these and other pertinent issues 
related to Federal facility security.
                                 ______
                                 
             Statement of Ranking Member Bennie G. Thompson

    The purpose of this hearing is to review the security protocols in 
place to safeguard Federal facilities and the Federal personnel who 
work within them, and the visitors to those buildings. I am a long-
standing observer of the Federal Protective Service, or FPS, and at the 
beginning of this Congress, I reintroduced my legislation, H.R. 735, 
the Federal Protective Service Improvement and Accountability Act of 
2013. My legislation seeks to move FPS away from its over-reliance on 
contract security guards, and to instead build up the agency's internal 
capacity.
    Also, at my request, the Government Accountability Office has 
produced 10 reports related to FPS, the most recent of which pertains 
to today's topic of Federal facility security protocols and which was 
released in January of this year. We are all cognizant of the recent 
shooting at the Navy Yard on September 16, yet incidents of active 
shooters who breach Federal facilities have become all too commonplace.
    In my own home district of Jackson, Mississippi, a man was arrested 
on October 2 for attempting to walk inside the Veterans Affairs 
regional affairs office with a pistol and was then recommended to 
undergo a psychiatric evaluation. Some other recent examples of 
individuals who have attempted to open fire on Federal facilities 
include a former police officer in Wheeling, West Virginia who fired 
more than 20 shots at a Federal courthouse located there on October 8 
of this year; on February 15, 2012, an ICE agent shot and killed one 
colleague and wounded another in the Federal building in Long Beach, 
California; and a bag containing an improvised explosive device, or 
IED, was left undetected for several weeks inside the Federal building 
in Detroit, Michigan in February 2011. An FPS contract guard brought 
the bag inside the building and placed it under a screening console 
where the IED remained in the bag until it was discovered 21 days 
later.
    Clearly, we must ensure that the personnel who oversee physical 
security programs at our Federal facilities are adhering closely to the 
uniform set of standards provided by the Interagency Security 
Committee. In 1995, after the bombing of the Alfred P. Murrah Federal 
building in Oklahoma City, President Bill Clinton signed Executive 
Order 12977. As an outcome of Executive Order 12977, the Interagency 
Security Committee was created to produce a coherent set of physical 
security standards that can be tailored to meet the diverse needs of 
Federal agencies and departments.
    This hearing should allow us to determine how closely Federal 
agencies and departments are complying with the Interagency Committee's 
security protocols, and demonstrate what remaining outreach work DHS 
must undertake to make sure that its physical security protocols are 
being implemented and adhered to in the interest of National safety.

    Mr. Duncan. We are pleased to have a distinguished panel of 
witnesses before us today on this important topic. Let me 
remind the witnesses that their entire written statement will 
appear in the record.
    I will introduce each of you first and then I will 
recognize you individually for your testimony.
    Members of the Committee may come and go today. There is a 
lot going on on the Hill with mark-ups and other committee 
hearings on a Wednesday morning. So Members may come and go as 
the committee progresses.
    So let me start off by introducing the witnesses. The first 
one is Mr. L. Eric Patterson. Eric was appointed director of 
the Federal Protective Service, a subcomponent of the National 
Protection and Programs Directorate of the Department of 
Homeland Security in September 2010.
    Mr. Patterson previously served as deputy director of 
defense, counterintelligence, and HUMINT center at the Defense 
Intelligence Agency, DIA. Prior to joining DIA, Mr. Patterson 
served as a principal with Booz Allen Hamilton, where he 
supported two of the Defense Technical Information Center 
analysis centers.
    Mr. Patterson is a retired United States Air Force 
brigadier general with 30 years of service.
    Sir, thank you for your service to our great Nation.
    Mr. Greg Marshall is the chief security officer for the 
Department of Homeland Security. In this capacity, Mr. Marshall 
is responsible for security-related issues effecting the 
Department personnel security, physical security, special 
security, special access programs, security training and 
awareness.
    Mr. Marshall began his Federal career as a police officer 
with the United States Capitol Police in 1984 and later 
transferred to the Howard County Maryland Police Department 
where he retired in 2007.
    He returned to Federal service when he joined DHS as deputy 
chief of physical security and was later promoted deputy chief 
security officer.
    Ms. Caitlin Durkovich is the assistant secretary for 
infrastructure protection at the Department for Homeland 
Security. In this role, she leads the Department's efforts to 
strengthen public-private partnerships and coordinate programs 
to protect the Nation's critical infrastructure, assess and 
mitigate risk, build resilience, and strengthen instant 
response and recovery.
    Previously, Ms. Durkovich served as the National Protection 
and Program Directorate as chief of staff, overseeing day-to-
day management of the director and the development of internal 
policies and strategic planning.
    She is testifying on behalf of the inter-agency security 
committee, a committee comprised of 53 representatives of 
Federal agencies and departments with the mandate to enhance 
the quality and effectiveness of physical security of Federal 
buildings in the United States.
    Last, Mr. Mark Goldstein is the director of physical 
infrastructure issues at the GAO. Mr. Goldstein is responsible 
for GAO's work in the areas of Government property, critical 
infrastructure, and telecommunications.
    Mr. Goldstein has held other public-sector positions 
including serving as the deputy executive director and chief of 
staff to the District of Columbia financial control board, 
legislative adviser of the commissioner of internal revenue, 
and a senior staff member of the United States Senate Committee 
on Homeland Security and Governmental Affairs.
    Prior to Government service, Mr. Goldstein was an 
investigative journalist and author.
    We can see that we have got a great panel here today and I 
look forward to your testimony. So I want to thank you all for 
being here. I now recognize Mr. Patterson for his opening 
statement.

 STATEMENT OF L. ERIC PATTERSON, DIRECTOR, FEDERAL PROTECTIVE 
         SERVICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Patterson. Good morning, sir. Good morning and thank 
you, Chairman Duncan and Congressman O'Rourke and the other 
distinguished Members of the subcommittee.
    My name is Eric Patterson and I am the director of the 
Federal Protective Service within the National Protection and 
Programs Directorate of the Department of Homeland Security. I 
am honored to testify before this committee today regarding the 
mission and operations of the Federal Protective Service.
    In the United States, Government facilities remain a 
potential target of attacks. FPS's mission is to protect over 
9,000 Federal facilities and over 1.4 million occupants and 
visitors.
    To accomplish our mission, FPS inspectors and contract 
protective security officers, referred to as PSOs, work in 
tandem to attend to daily security needs at Federal facilities 
and respond to threats directed against the facilities or the 
Government personnel working within them.
    PSOs are the eyes and ears of our organization. PSOs are 
responsible for controlling access to Federal facilities, 
detecting and reporting criminal acts, and responding to 
emergency situations.
    PSOs also ensure prohibited items such as firearms, 
explosives, knives, and drugs do not enter Federal facilities. 
In fact, FPS PSOs stop approximately 700,000 prohibited items 
from entering Federal facilities annually.
    All PSOs must undergo preliminary background investigation 
checks to determine their fitness to begin work on behalf of 
the Federal Government.
    FPS partners with private-sector guard companies to ensure 
that the guards have met the certification, training, and 
qualification requirements specified in the contracts, covering 
subject areas such as ethics, crime scene protection, actions 
to take in special situations such as building evacuations, 
safety in fire prevention, and public relations.
    To ensure high performance of our contractor PSO force, FPS 
law enforcement personnel conduct PSO post-inspections and 
integrate covert test activities to monitor vendor compliance 
and countermeasure effectiveness. Additionally, vendor files 
are audited periodically to validate the PSO certifications and 
training records reflect compliance with contract requirements. 
In fiscal year 2013 alone, FPS conducted 54,000 post 
inspections and 17,000 PSO personnel file audits.
    As Members of the committee may be aware, the GAO has in 
the past raised some concerns regarding FPS's handling of PSO 
training and oversight. FPS has taken significant steps to 
improve oversight of PSO contracts.
    For example, FPS is currently hiring 39 additional contract 
officer representatives in order to improve oversight of vendor 
contract compliance. FPS has also drafted and is vetting an 
enhanced policy for FPS PSO contract performance monitoring and 
oversight.
    Due in part to these actions, FPS has made significant 
progress toward closing GAO and OIG recommendations pertaining 
to our oversight.
    FPS also directly employs 1,000 Federal law enforcement 
personnel who perform a variety of critical functions, 
including PSO oversight, facility security assessments, and 
uniformed police response.
    To assist our law enforcement personnel in performing 
oversight of PSO posts, FPS has partnered with DHS Science and 
Technology to develop a near-term, real-time post-tracking 
system, also referred to as PTS, which will facilitate the 
identification of the most effective and efficient solutions 
for managing our guard force.
    One of the most important responsibilities of FPS law 
enforcement personnel is conducting facility security 
assessments, also referred to as FSAs. FSAs document security-
related risk to a facility and provide a record of 
countermeasure recommendations designed to enable tenant 
agencies to meet inter-agency security committee standards for 
Federal facility security.
    Specifically, FPS conducts multiple interviews and in-depth 
research to support the accomplishment of facility-specific 
threat assessments. These assessments are an integral first 
step in establishing the foundation for the risk framework.
    FPS collaboration with private sector and Government 
stakeholders is critical to the successful implementation and 
characterization of a risk-management framework for each unique 
facility.
    Finally, FPS officers respond to tens of thousands of calls 
for service annually, which entail responding to criminal 
activity in progress, to protect life and property, and to 
respond to National security events or to support other law 
enforcement responding to a critical situation, as was in the 
case at the Navy Yard on September 16, 2013.
    With regard to responding to an active-shooting incident, I 
would like to take this opportunity to note that FPS does 
administer an active-shooter tenant awareness training program 
and has provided training to more than 3,300 Federal facility 
tenants. Additionally, while FPS PSOs are not sworn Federal law 
enforcement officers and are statutorily limited in the scope 
of actions that they can take during an active-shooter 
incident, FPS does provide them instruction regarding actions 
to take in special situations such as a building fire or report 
of workplace violence or other emergency situations or 
evacuations.
    In closing, I would like to acknowledge and thank our 
partners, especially members of the law enforcement community, 
who responded the day of the Navy Yard shooting. The events of 
September 16 were both a testament to their dedication and 
training, and a stark reminder of the critical importance of 
the mission of the Department of Homeland Security and the 
Federal Protective Service.
    The Federal Protective Service remains committed to 
providing safety, security, protection, and a sense of well-
being to thousands of Federal employees, citizens, and visitors 
who work and conduct business in our Federal facilities daily.
    Thank you again for the opportunity to testify before this 
committee, and I will be pleased to answer any questions you 
may have.
    [The joint prepared statement of Mr. Patterson and Ms. 
Durkovich follows:]

 Joint Prepared Statement of Leonard E. Patterson and Caitlin Durkovich
                            October 30, 2013

    Thank you Chairman Duncan, Ranking Member Barber, and the 
distinguished Members of the subcommittee. We are pleased to appear 
before the committee today to discuss the efforts by the National 
Protection and Programs Directorate (NPPD) to increase security and 
resilience at our Nation's Federal facilities. The men and women 
serving in NPPD have wide-ranging responsibilities, from serving on the 
front lines of law enforcement to developing standards with 
stakeholders to conducting training Nation-wide. NPPD works with owners 
and operators, public safety, and countless others daily to keep the 
Nation secure. These efforts prepare our partners for steady state and 
day-to-day activity, but also for large-scale and complex incidents. 
NPPD builds capabilities among our stakeholders and enhances 
coordination and planning efforts, so when an incident occurs, our 
employees and stakeholders are prepared to respond and mitigate future 
incidents.
    In addition to working with public and private-sector partners to 
enhancing security across the sectors, NPPD provides daily protection 
at Federal facilities through the Federal Protective Service (FPS), 
protecting more than 1.4 million tenants and visitors in the 
facilities, on the grounds, and on property owned, occupied, or secured 
by the Federal Government. Across the country FPS provides law 
enforcement and security management services, which include operations 
and oversight of approximately 12,000 contract Protective Security 
Officers (PSO), and security countermeasure services for more than 
9,000 General Services Administration-owned, -leased, or -operated 
facilities located across the country and other Federal facilities.

    ENSURING THE SECURITY AND RESILIENCE OF CRITICAL INFRASTRUCTURE

    Within NPPD, the Office of Infrastructure Protection (IP) works 
with public and private-sector partners to increase the security and 
resilience of critical infrastructure and protect the individuals 
relying on infrastructure. This includes programs to support critical 
infrastructure owners and operators in enhancing their facilities' 
security and resilience and coordinating critical infrastructure 
sectors.
    IP is responsible for overall coordination of the Nation's critical 
infrastructure security and resilience efforts, including development 
and implementation of the National Infrastructure Protection Plan 
(NIPP). The NIPP establishes the framework for integrating the Nation's 
various critical infrastructure security and resilience initiatives 
into a coordinated effort. The NIPP provides the structure through 
which the Department of Homeland Security (DHS), in partnership with 
Government and industry, implements programs and activities to protect 
critical infrastructure, promote National preparedness, and enhance 
incident response. The NIPP is regularly updated to capture evolution 
in the critical infrastructure risk environment, and DHS is currently 
updating the NIPP based on requirements set forth in Presidential 
Policy Directive (PPD) 21.\1\
---------------------------------------------------------------------------
    \1\ In February 2013, President Obama issued Presidential Policy 
Directive (PPD) 21 on Critical Infrastructure Security and Resilience. 
PPD-21 advances a National unity of effort to strengthen and maintain 
secure, functioning, and resilient critical infrastructure. One of the 
requirements set forth in the policy was for DHS to update the NIPP.
---------------------------------------------------------------------------
    IP conducts on-site risk assessments of critical infrastructure and 
shares risk and threat information with State, local, and private-
sector partners. In addition to helping critical infrastructure owners 
and operators become more aware of the risks, hazards, and mitigation 
strategies, we're also helping them measure and compare their levels of 
security and resilience and how they can improve. In the last year, we 
conducted more than 900 vulnerability assessments and security surveys 
on critical infrastructure to identify potential gaps and provide the 
owners and operators with options to mitigate those gaps and strengthen 
security and resilience. In addition to serving owners and operators 
and Government officials directly, IP supports the development of 
standards, reports, guidelines, and best practices for civilian Federal 
facilities through the Interagency Security Committee (ISC).
Interagency Security Committee
    The mission of the ISC is to safeguard U.S. civilian facilities 
from all hazards by developing state-of-the-art security standards in 
collaboration with public and private homeland security partners. The 
ISC was created following the bombing of the Alfred P. Murrah Federal 
Building in Oklahoma City on April 19, 1995--the deadliest attack on 
U.S. soil before September 11, 2001 and the worst domestic-based 
terrorist attack in U.S. history. Following the attack, Executive Order 
12977 created the ISC to address ``continuing Government-wide 
security'' for Federal facilities in the United States.
    ISC standards apply to all civilian Federal facilities in the 
United States. These include facilities that are Government-owned, -
leased, or -managed, to be constructed or modernized, or to be 
purchased, accounting for more than 399,000 Federally-owned and -leased 
assets and over 3.35 billion square feet Nation-wide.\2\ The ISC is 
truly an interagency body exhibiting collaboration and communication 
between 53 Federal agencies and departments.\3\ When agencies cannot 
solve security-related problems on their own, the ISC brings chief 
security officers and senior executives together to solve continuing 
Government-wide security concerns. The ISC is responsible for the 
creation and implementation of numerous standards, guidelines, and best 
practices for the protection of over 300,000 nonmilitary Federal 
facilities across the country. This work is based on real-world, 
present-day conditions and challenges and allows for cost savings by 
focusing on specific security needs of the agencies.
---------------------------------------------------------------------------
    \2\ The Federal Real Property Council's Fiscal Year 2010 Federal 
Real Property Report, An Overview of the U.S. Federal Government's Real 
Property Assets.
    \3\ Additional information on ISC membership is located in the 
Appendix.
---------------------------------------------------------------------------
    The ISC is a permanent body with appointed members who often serve 
multi-year terms. Several have represented their organizations for more 
than a decade. Leadership of the ISC is provided by the assistant 
secretary for infrastructure protection, an executive director, as well 
as 8 standing subcommittees: Steering, Standards, Technology, 
Convergence, Training, Countermeasures, Design-Basis Threat, and the 
Chair Roundtable.
    FPS is an active participant in the work of the ISC, helping shape 
standards, guidance, and best practices that enable FPS employees to 
perform their protection mission with consistency and efficiency. FPS 
sits on the ISC Steering committee, chairs the Training subcommittee, 
and has representatives on a number of other ISC committees and working 
groups, including the Design Basis Threat group, the Countermeasures 
subcommittee, and others. FPS chaired the working group that authored a 
``Best Practices for Federal Mobile Workplace Security'' document in 
2013 that is currently under review, and is also on the Active Shooter-
Prevention and Response as well as the PPD-21 and Compliance working 
groups that are currently meeting. In recent years, FPS has also co-
chaired the working groups that produced the Items Prohibited from 
Federal Facilities: An ISC Standard and Best Practices for Armed 
Security Officers in Federal Facilities, 2nd Edition documents. FPS 
also serves as the Sector-Specific Agency for the Government Facilities 
Sector. In this role FPS is responsible for working with various 
partners--including other Federal agencies; State, local, Tribal, and 
territorial governments as well as other sectors--to develop and 
implement the Government facilities sector-specific plan.
Standards and Best Practices for Secure Facilities
    The ISC issues standards, reports, guidelines, and best practices 
to protect approximately 1.2 million Federally-owned buildings, 
structures, and land parcels more than 2.5 million tenant employees, 
and millions of visitors each day from harm. The documents developed by 
the ISC affect all civilian Federal facilities--Government-owned, -
leased, to be constructed, modernized, or purchased.
            Examples of ISC Standards and Guidelines
  <bullet> The Risk Management Process for Federal Facilities 
        Standard.--Issued August 2013, this ISC Standard defines the 
        criteria and processes that those responsible for the security 
        of a facility should use to determine its facility security 
        level and provides an integrated, single source of physical 
        security countermeasures for all non-military Federal 
        facilities. The Standard also provides guidance for 
        customization of the countermeasures for Federal facilities and 
        encompasses the following documents:
        (1) Facility Security Level Determinations (FSL)--2008;
        (2) Physical Security Criteria for Federal Facilities--2010;
        (3) Design Basis Threat--2013;
        (4) Facility Security Committees--2012;
        (5) Use of Physical Security Performance Measures--2009;
        (6) Child-Care Centers--Level of Protection Template--2010.
  <bullet> Violence in the Federal Workplace: A Guide for Prevention 
        and Response.--Issued April 2013, these Government-wide 
        procedures for threat assessment, intervention, and response to 
        incidents of workplace violence were developed by the ISC, in 
        conjunction with the Chief Human Capital Officers Council and 
        the National Institutes of Occupational Safety and Health.
  <bullet> Occupant Emergency Programs: An ISC Guide.--Issued March 
        2013, this guidance outlines the components of an Occupant 
        Emergency Program, including those items that comprise an 
        emergency plan, and defines the basic guidelines/procedures to 
        be used for establishing and implementing an effective occupant 
        emergency program.
  <bullet> Items Prohibited From Federal Facilities: An ISC Standard.--
        Issued February 2013, this standard establishes a guide-line 
        process for detailing control of prohibited items into Federal 
        facilities, and identifies responsibilities for denying entry 
        to those individuals who attempt to enter with such items.
  <bullet> Best Practices for Armed Security Officers in Federal 
        Facilities, 2nd Edition.--Issued February 2013, this best 
        practice recommends a set of minimum standards to be applied to 
        all contract armed security officers working in Federal 
        facilities.
  <bullet> Security Specialist Competencies: An ISC Guideline.--Issued 
        January 2012, this document provides the range of core 
        competencies Federal Security Specialists should possess to 
        perform their basic duties and responsibilities.
  <bullet> Best Practices for Mail Screening and Handling.--Issued 
        September 2011, this joint ISC-Department of Defense Combating 
        Terrorism Technical Support Office/Technical Support Working 
        Group (CTTSO/TSWG) document provides mail center managers, 
        supervisors, and security personnel with a framework for 
        mitigating risks posed by mail and packages.
    The ISC continues to identify new initiatives based on current and 
emerging threats as well as revise policies which may become outdated. 
Currently the ISC is working on several new initiatives:
  <bullet> Active Shooter--Prevention and Response.--Streamlining 
        existing Federal guidance and ISC policy on Active Shooter into 
        one cohesive guidance document that agencies housed in non-
        military Federal facilities can use as a reference to enhance 
        preparedness for an active-shooter incident.
  <bullet> Facility Security Plan.--Utilizing the ISC's Risk Management 
        Process to develop guidance agencies can use to develop a 
        Facility Security Plan.
  <bullet> Security Office Staffing.--Establishing criteria and 
        policies which will inform agencies' staffing of Security 
        Offices.
  <bullet> Resource Management.--Developing guidance to help agencies 
        make the most effective use of resources available for physical 
        security across their portfolio of facilities and examine the 
        use of organizational practices for resource management 
        purposes.
  <bullet> Presidential Policy Directive 21 and Compliance.--Developing 
        security criteria for critical infrastructure supporting 
        mission-essential functions to account for PPD-21 requirements 
        and to create a strategy for compliance.
  <bullet> Best Practices for Federal Mobile Workplace Security.--
        Analyzing the future impact on physical and cybersecurity 
        policy and practices.
    Threats to our critical infrastructure, including Federal 
facilities, are wide-ranging. Not only are there terrorist threats, 
like the bombing at the Boston Marathon this past spring, but threats 
from weather-related events, such as Hurricane Sandy, as well as 
threats to our cyber infrastructure which may have a direct impact on 
the security of our Federal buildings. While it's impossible to 
anticipate every threat, NPPD is taking a holistic approach to create a 
more resilient infrastructure environment to better handle these 
challenges, and the work of the ISC exemplifies these efforts. Ensuring 
our Federal facilities are secure and resilient is a large challenge, 
but by providing our partners with standards and best practices, law 
enforcement agencies serving at Federal facilities every day, like the 
Federal Protective Service, have the tools and resources necessary to 
mitigate threats.

Active-Shooter Preparedness
    Recent events have demonstrated the need to identify measures that 
can be taken to reduce the risk of mass casualty shootings, improve 
preparedness, and expand and strengthen on-going efforts intended to 
prevent future incidents. DHS aims to enhance preparedness through a 
``whole community'' approach by providing training, products, and 
resources to a broad range of stakeholders on issues such as active-
shooter awareness, incident response, and workplace violence.
    FPS has developed an Active-Shooter Tenant Awareness training 
program and has provided this training to more than 3,300 Federal 
facility tenants so they may be better equipped to analyze a potential 
situation and work through concerns, actions, and decisions. In 
addition, more than 1,000 FPS law enforcement officers and agents have 
been trained in ``Active-Shooter Response Tactics.'' To date, over 
9,700 individuals have viewed DHS's active-shooter webinar, over 7,300 
attendees have participated in over 100 active-shooter workshops and 
exercises Nation-wide, and over 263,400 Americans have taken DHS's 
``Active Shooter: What You Can Do'' course. Each workshop allows 
participants to ``live'' an emergency incident and analyze the 
situation to work through concerns, actions, and decisions. DHS also 
launched an active-shooter webpage in January 2013, which includes 
active-shooter training resources for Federal, State, and local 
partners, as well as the public. Since its launch, the page has been 
accessed more than 258,000 times. In addition to the training FPS 
provides to tenants, FPS's PSOs receive instruction regarding actions 
to take in special situations, such as a building fire, a report of an 
active shooter or workplace violence, and other emergency situations or 
evacuations.

       ENSURING THE SECURITY AND RESILIENCE OF FEDERAL FACILITIES

    In the United States Government facilities remain a potential 
target of attacks. The NPPD FPS mission is to protect Federal 
facilities and their occupants and visitors by providing superior law 
enforcement and protective security services, leveraging the 
intelligence and information resources of its network of Federal, 
State, local, Tribal, territorial, and private-sector partners. To 
accomplish our mission and help prevent incidents like the Navy Yard 
tragedy from occurring at FPS-protected Federal facilities, our 
inspectors and PSOs work in tandem to attend to daily security needs at 
Federal facilities, assess individual Federal facilities' 
vulnerabilities to both natural and man-made events, and effectively 
respond to security-related activities and threats directed against the 
facilities or the Government personnel working within them.
    In performing the mission of protecting Federal facilities and 
persons thereon, we rely on our law enforcement and security 
authorities found at 40 U.S.C.  1315; our ability to enter into 
agreements with State, local, and Tribal law enforcement agencies for 
purposes of protecting Federal property; the enforcement of Federal 
Management Regulation sections pertinent to conduct on Federal property 
under 41 C.F.R., Part 102-74 Subpart C; and our responsibility as a 
recognized ``first responder'' for all crimes and suspicious 
circumstances occurring at GSA-owned or -leased property.

                             FPS OPERATIONS

    FPS contracted PSOs are the eyes and ears of our organization. PSOs 
are responsible for controlling access to Federal facilities, 
conducting screening at access points to Federal facilities, enforcing 
property rules and regulations, detecting and reporting criminal acts, 
and responding to emergency situations involving facility safety and 
security. PSOs also ensure prohibited items, such as firearms, 
explosives, knives, and drugs, do not enter Federal facilities. In 
fact, FPS PSOs stop approximately 700,000 prohibited items from 
entering Federal facilities annually.

Suitability
    All PSOs must undergo preliminary background investigation checks 
to determine their fitness to begin work on behalf of the Government. 
At FPS, preliminary checks consist of a review of the applicant's 
background investigation questionnaire form as well as automated record 
checks with the FBI, National Crime Information Center, credit 
reporting bureaus, and naturalization/citizenship checks, when 
applicable. If derogatory information cannot be mitigated to allow for 
a favorable preliminary decision, the background investigation must be 
completed and favorably adjudicated prior to ``Entry On Duty'' 
approval. For PSOs serving in Federal facilities requiring a high-level 
security clearance, DHS uses the Defense Security Service to adjudicate 
background investigations.

Training
    FPS partners with private-sector guard companies to ensure that 
PSOs are prepared to accomplish their duties. FPS works with the guard 
companies to ensure the guards have met the certification, training, 
and qualification requirements specified in the contracts, covering 
subject areas such as ethics, crime scene protection, actions to take 
in special situations such as building evacuations, safety and fire 
prevention, and public relations. Courses are taught by FPS, by the 
contract guard company, or by a qualified third party such as the 
American Red Cross for CPR. PSOs also receive instruction in areas such 
as X-Ray and magnetometer equipment, firearms training and 
qualification, baton qualification, and First-Aid certification. PSOs 
are required to attend refresher training and they must recertify in 
weapons qualifications in accordance with Federal and State 
regulations.
    The FPS training team is working closely with industry and Federal 
partners in an effort to further standardize the PSO training screening 
station-related training. For example, our trainers work with the U.S. 
Marshals Service and Transportation Security Administration trainers to 
incorporate best practices into the base X-Ray, Magnetometer, and Hand-
Held Metal Detector training. Additionally, FPS is working closely with 
the National Association of Security Companies to develop a National 
Lesson Plan for PSOs that will establish a basic and National training 
program for all PSOs; this is important to ensure standards are 
consistent across the Nation. These efforts will further standardize 
training PSOs receive and will provide for a great capability to 
validate training and facilitate rapid adjustments to training to 
account for changes in threat and technological advancements.

Oversight
    FPS is committed to ensuring high performance of its contracted PSO 
workforce. FPS Law Enforcement personnel conduct PSO post inspections 
and integrated covert test activities to monitor vendor compliance and 
countermeasure effectiveness. Additionally, vendor files are audited 
periodically to validate that PSO certifications and training records 
reflect compliance with contract requirements. In fiscal year 2013, FPS 
conducted 54,830 PSO post inspections and 17,500 PSO personnel file 
audits.
    In addition, and in accordance with procurement regulation and 
policy, contract deficiencies and performance issues are documented in 
the annual Contractor Performance Assessment Report. FPS Headquarters 
and regional leadership are provided with regular reports to maintain 
visibility on the status of these important assessments that are also 
used by agency source selection officials in the procurement process 
when awarding new PSO contracts.
    As Members of the committee may be aware, the GAO has, in the past, 
raised some concerns regarding FPS's handling of PSO training and 
oversight. FPS has taken significant steps to improve oversight of PSO 
contracts. For example, FPS is currently hiring 39 additional 
Contracting Officer Representatives in order to improve oversight of 
vendor contract compliance. FPS has also drafted and implemented an 
enhanced policy for FPS PSO performance monitoring, security force 
management, and contractor management functions. Among other 
improvements, this standardizes Nationally the methods and frequencies 
of PSO post inspections and audits of contractor files.
    Due in part to these actions, FPS has made significant progress 
toward closing GAO and OIG recommendations pertaining to oversight. 
Since 2011, FPS has successfully closed 13 GAO and 4 OIG 
recommendations and has submitted closure documentation for 9 
additional recommendations. Of these, 2 were successfully closed and 7 
are pending GAO's internal review for closure.

                       LAW ENFORCEMENT PERSONNEL

    FPS also directly employs over 1,000 Federal Law Enforcement 
Personnel who are trained physical security experts. Law Enforcement 
Personnel perform a variety of critical functions, including conducting 
comprehensive security assessments of vulnerabilities at facilities, 
developing and implementing protective countermeasures, and providing 
uniformed police response and investigative follow-up. As previously 
noted, Law Enforcement Personnel also conduct PSO guard post 
inspections on a daily basis as well as Operation Shield activities, 
which involve deployments of a highly visible array of law enforcement 
personnel to validate and augment the effectiveness of FPS 
countermeasures across the protective inventory.\4\
---------------------------------------------------------------------------
    \4\ This includes providing highly-visible law enforcement presence 
to disrupt terrorist/criminal activity, expand patrol and response 
operations through increased coverage, demonstrate FPS's commitment to 
employing the highest standards for the security of Federal facilities 
and the safety of their occupants; and collect and assimilate data to 
continually assess and improve FPS's ability to achieve its core 
mission--to secure facilities and safeguard occupants.
---------------------------------------------------------------------------
Facility Security Assessments
    One of the most important responsibilities of FPS Law Enforcement 
Personnel is conducting Facility Security Assessments (FSAs) at FPS-
protected facilities Nation-wide. FSAs document security-related risks 
to a facility and provide a record of countermeasure recommendations. 
The process analyzes potential threats toward a facility through a 
variety of research sources and information. Upon identification of the 
threats, the process identifies and analyzes vulnerabilities to a 
particular facility utilizing Protective Measure Indices (PMI). 
Assessors utilize the Modified Infrastructure Survey Tool (MIST) to 
document the existing protective posture at a facility and compares how 
a facility is, or is not, meeting the baseline level of protection for 
its FSL as set forth in the ISC's Physical Security Criteria for 
Federal Facilities standard and the ISC's Design Basis Threat report. 
MIST also compares the disparities identified against the baseline 
level of protection specified in the ISC standards, thereby 
operationalizing those standards, and enabling mitigation of the 
vulnerabilities identified. The FSA report is a historical record and 
informative report provided to FPS stakeholders to support their 
decision making in risk mitigation strategies.
    FSAs require collaboration between FPS private-sector stakeholders 
and Government stakeholders. Collaboration between these entities is 
critical to successful implementation of a risk management framework. 
FPS partners with all of the stakeholders to identify and gather all 
necessary information for characterizing the risks to each unique 
facility. FSA is accomplished on a recurring schedule broken down by 
FSL.

Law Enforcement Response
    FPS officers respond to tens of thousands of calls for service 
annually, some of which entail responding to criminal activity in 
progress, others to protect life and property, and still others to 
respond to National security events or to support other law enforcement 
responding to a critical situation, as was the case in the Navy Yard 
complex on September 16, 2013. In this case, FPS responded to the on-
scene Navy Yard Unified Command center in a supporting role and 
deployed six K9 Explosive Detection Dog teams to be staged at the Navy 
Yard and sweep the Nationals Park parking lot in response to mutual-aid 
calls from the District of Columbia Metropolitan Police Department and 
the FBI. Additionally, given the proximity of the FPS-protected U.S. 
Department of Transportation (DOT) building to the Navy Yard complex, 
FPS deployed to the DOT building, coordinated a Shelter-in-Place for 
all occupants, established a secure perimeter around the building, 
conducted K9 sweeps around the perimeter, and increased uniformed 
patrol activities at other FPS-protected Federal facilities located 
within the southeast corridor of the District of Columbia.

               COMMITMENT TO SECURING FEDERAL FACILITIES

    In closing, we would like to acknowledge and thank our partners in 
both the public and private sector, especially members of the law 
enforcement community who responded the day of the Navy Yard shooting. 
We are grateful for their continued service. The shooting at the Navy 
Yard on September 16 provided a reminder of the need to ensure our 
infrastructure is secure and resilient so we can protect our 
communities, regardless of the threat. We must maintain our 
partnerships and continue to seek new opportunities to enhance the 
security and resiliency of our Nation while providing our first 
responders with the resources and tools they need.
    DHS is committed to ensuring our Federal facilities remain safe and 
secure for employees and visitors. Our employees will continue serving 
on the front lines at Federal facilities and working behind the scenes 
to develop standards and supporting law enforcement efforts. Thank you 
again for the opportunity to testify before this committee. We look 
forward to answering any questions you may have.

          Appendix.--Interagency Security Committee Membership

    Membership in the ISC consists of over 100 senior-level executives 
from 53 Federal agencies and departments. In accordance with Executive 
Order 12977, modified by Executive Order 13286, primary members 
represent 21 Federal agencies. Associate membership is determined at 
the discretion of the ISC Steering Committee and the ISC Chair. 
Currently, associate members represent 32 Federal departments.
Primary Members (21)
    (1) Assistant to the President for National Security Affairs
    (2) Central Intelligence Agency
    (3) Department of Agriculture
    (4) Department of Commerce
    (5) Department of Defense
    (6) Department of Education
    (7) Department of Energy
    (8) Department of Health and Human Services
    (9) Department of Homeland Security
    (10) Department of Housing and Urban Development
    (11) Department of the Interior
    (12) Department of Justice
    (13) Department of Labor
    (14) Department of State
    (15) Department of Transportation
    (16) Department of the Treasury
    (17) Department of Veterans Affairs
    (18) Environmental Protection Agency
    (19) General Services Administration
    (20) Office of Management and Budget
    (21) U.S. Marshals Service
Associate Members (32)
    (1) Commodity Futures Trading Commission
    (2) Court Services and Offender Supervision Agency
    (3) Federal Aviation Administration
    (4) Federal Bureau of Investigation
    (5) Federal Communications Commission
    (6) Federal Deposit Insurance Corporation
    (7) Federal Emergency Management Agency
    (8) Federal Protective Service
    (9) Federal Reserve Board
    (10) Federal Trade Commission
    (11) Government Accountability Office
    (12) Internal Revenue Service
    (13) National Aeronautics & Space Administration
    (14) National Archives & Records Administration
    (15) National Capital Planning Commission
    (16) National Institute of Building Sciences
    (17) National Institute of Standards & Technology
    (18) National Labor Relations Board
    (19) National Science Foundation
    (20) Nuclear Regulatory Commission
    (21) Office of the Director of International Intelligence
    (22) Office of Personnel Management
    (23) Office of the U.S. Trade Representative
    (24) Securities and Exchange Commission
    (25) Smithsonian Institution
    (26) Social Security Administration
    (27) U.S. Army Corps of Engineers
    (28) U.S. Capitol Police
    (29) U.S. Coast Guard
    (30) U.S. Courts
    (31) U.S. Institute of Peace
    (32) U.S. Postal Service

    Mr. Duncan. Thank you.
    The Chairman will now recognize Mr. Marshall to testify.

   STATEMENT OF GREG MARSHALL, CHIEF SECURITY OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Marshall. Chairman Duncan, Congressman O'Rourke, 
Members of the committee, good morning and thank you for the 
opportunity to provide testimony on access control for Federal 
facilities.
    I am Greg Marshall, the chief security officer for the U.S. 
Department of Homeland Security. I am a career official with 
nearly 30 years of law enforcement experience. The mission of 
my office is to safeguard the Department's people, property, 
and information. Accordingly, I am responsible, often in 
partnership with my colleagues at the Federal Protective 
Service, for security-related issues affecting more than 
235,000 DHS employees that comprise the Department.
    The security oversight and guidance authority of my office 
applies across the Department. However, operational components 
play a significant role in managing the facilities which they 
inhabit, including access. The diverse missions and 
responsibilities of the Department and the facilities used to 
meet these missions underscore the challenges involved with the 
physical security and access control disciplines.
    The tragic events of Monday, September 16 at the Navy Yard 
have placed the issue of physical security, access control, and 
personnel vetting front and center in the minds of security 
professionals across the Federal landscape. I need to make 
clear, however, that security aims to manage risk, not 
eliminate it. Our job is to do everything we can to keep our 
employees safe, and in doing so we have the benefit of policies 
and procedures and processes and technologies, both proven and 
emerging, to help guide and improve our security programs.
    When we consider the security for a Federal facility, 
including access control, we follow the interagency security 
community standards. Facilities are assessed for risk and 
appropriate countermeasures are employed. The outcome of these 
risk assessments drives the level of protection, to include an 
appropriate access control posture. A one-size security 
solution, however, cannot and will not fit all.
    For employees to qualify for access to facilities, they 
must undergo a background investigation to establish 
suitability or fitness for employment. These investigations are 
for the most part conducted by OPM. Contractors are screened in 
a similar process to determine fitness for work on a DHS 
contract and to also have facility access. Background 
investigations for suitability and fitness examine character 
and conduct, past conduct. Based upon all available 
information, we make an adjudicative decision concerning a 
person's suitability or fitness for employment or access to 
classified information.
    It is important to note that any background investigation, 
no matter how rigorous, is no guarantee that all relevant 
information is known, available, or has been included in the 
investigation. Also, a background investigation may not 
reliably predict future behavior. A background investigation is 
an exercise in risk management, establishing some basic facts, 
but cannot guarantee any individual's continuing fitness to 
carry out their duties or to behave in a lawful or safe manner.
    Recent improvements in our ability to manage these 
incidents--these inherent risks and incidents include Homeland 
Security Presidential Directive 12, which mandated a 
Government-wide standard for secure and reliable credential to 
be used when accessing Federal facilities. This credential, 
also known as a PIV card, represents a marked improvement over 
legacy identity cards. The background investigation process 
itself is undergoing major Government-wide reform with phased 
implementation to begin this fiscal year.
    The concept of continuous evaluation has been developed to 
supplement normal reinvestigation reviews with a process that 
examines conduct between the reinvestigation time frames. 
Relevant security information, like a recent arrest, would 
become available in near-real time, helping to ensure that 
Classified information and/or Federal facilities are 
appropriately safeguarded.
    Finally, this administration's recent information sharing 
and safeguarding initiative, also known as ``insider threat,'' 
seeks to complement background investigations and continuous 
evaluation with continuous monitoring. This program will 
incorporate and analyze data in near-real time from a much 
broader set of sources. Its focus is the protection of 
Classified information, but its applicability to suitability 
and contractor fitness is evident.
    To conclude, suitability determinations and access control 
to Federal facilities remains a work in progress, but is 
evolving toward dramatic improvement. We have made great 
progress, but managing employee and facility risks will 
continue to be a challenge.
    Thank you again for the opportunity to testify today.
    [The prepared statement of Mr. Marshall follows:]

                 Prepared Statement of Gregory Marshall
                            October 30, 2013

    Chairman Duncan, Ranking Member Barber, Members of the committee, 
good morning and thank you for the opportunity to provide testimony on 
access control for Federal facilities.
    I am Greg Marshall, chief security officer of the U.S. Department 
of Homeland Security (DHS). I lead the dedicated men and women who make 
up the Office of the Chief Security Officer. My office is an element of 
the Department's Management Directorate, and I report to the under 
secretary for management.
    The mission of our office is to safeguard the Department's people, 
property, information, and systems. Accordingly, the DHS chief security 
officer, often in partnership with the Federal Protective Service, is 
responsible for security-related issues affecting the more than 240,000 
DHS employees that compose the Department. I exercise DHS-wide security 
program authorities in the areas of personnel security, physical 
security, administrative security, special security, identity 
management, special access programs, and security training and 
awareness. I also support the chief information officer in the area of 
IT security policy and the under secretary for intelligence and 
analysis in the protection of intelligence sources and methods, and 
accreditations of Classified facilities.
    The security oversight and guidance authority of my office applies 
across the Department. However, Operational components play a 
significant role in managing the facilities which they inhabit, 
including access to those facilities. The diverse missions and 
responsibilities of the Department underscore the challenges involved 
within the physical security and access control disciplines.
    The tragic events of Monday, September 16 at the Washington Navy 
Yard have placed the issue of physical security, access control, and 
personnel vetting front and center in the minds of security 
professionals across the Federal landscape.
    Shortly after the Navy yard incident, I convened a meeting of the 
Department's Chief Security Officer Council. Each component Chief 
Security Officer (CSO) acknowledged the significance of the Navy Yard 
tragedy to access control and the underlying vetting processes and each 
CSO commented on the complexities of vetting and access, including the 
costs involved. With this in mind, the Department remains committed to 
ensuring that only those persons with a legitimate need to access any 
given facility are allowed to enter, that those persons possess no 
prohibited items, and that the backgrounds of those persons who do 
enter have been vetted to an appropriate level of rigor.
    I would make clear, however, that security involves risk 
management. Our job is to do everything we can to reduce the risk and 
keep our employees safe. In pursuit of our mission, please be assured 
that DHS security leadership and the professionals we manage have the 
benefit of extensive knowledge, training, and experience. We also have 
the benefit of comprehensive policies, procedures, processes, and 
emerging technologies to help guide and improve our key security 
programs.
    For example, when we consider the security posture for a Federal 
facility, including access control, we at DHS follow Interagency 
Security Committee standards. During this process, facilities are 
assessed for risk, and appropriate countermeasures are employed to 
mitigate the risks. Using a decision matrix involving mission 
criticality, the sensitivity of the activities conducted, threats to 
the facility, facility population of persons who work and visit there, 
and other factors, an appropriate Federal Security Level is assigned to 
each facility. Accordingly, the outcomes of these risk assessments 
drive the level of protection for each facility, to include an 
appropriate access control posture. Simply put, a one-size security 
solution does not and cannot fit all facilities.
    For our employees to qualify for access to a Federal DHS facility, 
an employee must undergo a background investigation to establish his or 
her suitability for employment. These investigations are, for the most 
part, conducted by OPM on behalf of DHS. Contractors are screened in a 
process similar to employees in order to determine their fitness to 
work on a DHS contract and have unescorted access to DHS facilities. 
Background investigations for suitability and fitness examine character 
and conduct behaviors, such as criminal history, alcohol and drug use, 
and employment history, among others. Based upon all available 
information, a personnel security specialist makes an adjudicative 
decision concerning a person's suitability or fitness for employment, 
including access to facilities.
    It is important to understand that a background investigation for 
suitability and one for a security clearance processes with multiple 
levels of investigation dependent upon the access required and level of 
risk. A security clearance allows access to Classified information, 
while a favorable suitability or fitness determination allows 
employment and access to facilities. On its own, a background 
investigation for suitability does not permit access to Classified 
information.
    It is also important to note that a background investigation for 
either a suitability determination or a security clearance, no matter 
how rigorous, is no guarantee that every bit of relevant information 
about the individual is available or has been included. For example, 
prior criminal convictions and/or arrest information may not be 
reported in State and/or Federal repositories, often simply due to data 
entry resource constraints. It is these types of checks that are basic 
elements of any Federal employment background investigation.
    Also, it is important to note that a background investigation may 
not be an indicator of future behavior. Even those who have 
successfully undergone the most rigorous set of background checks 
available--even a comprehensive polygraph examination--may someday 
prove untrustworthy. Ultimately, a Federal background investigation 
only examines past behavior and is sometimes based on limited available 
information.
    A Federal background investigation is an exercise in risk 
management, establishing some basic facts such as identity, 
citizenship, criminal history, etc. However, a background investigation 
cannot be characterized, in and of itself, does not guarantee any 
single individual's continuing day-to-day fitness to carry out his or 
her employment responsibilities or to behave in a lawful and safe 
manner.
    With these limitations in mind, there have been several recent 
improvements to the ability of the Government to manage these inherent 
risks.
    First, Homeland Security Presidential Directive 12 (HSPD-12) 
mandated the development and implementation of a Government-wide 
standard for a secure and reliable Personal Identity Verification (PIV) 
card for gaining access to Federally-controlled facilities. To date, 
DHS Headquarters and components have issued over 250,000 PIV cards to 
Federal employees and contractors. For the first time, this process has 
effectively linked the completion of a person's background 
investigation with the issuance to that person of a unique Federal 
identity credential. The PIV card represents a marked improvement over 
the various legacy access/identity cards, but is only a part of any 
solution. As a result, Federal facility access control processes use 
this PIV card and its various authentication mechanisms to verify the 
identity of the holder, link the holder to the card, and link the card 
itself to a database of valid employees and contractors having 
legitimate business at any given facility.
    Second, the background investigation process itself is undergoing a 
major Government-wide reform effort, to include revised Federal 
investigative standards signed jointly by the director of National 
Intelligence and the director of the Office of Personnel Management in 
2012, and phased implementation to begin this fiscal year. With the 
Federal investigative standards, the concept of ``continuous 
evaluation'' is being developed to supplement the normal re-
investigation reviews of employees which, under the revised standards, 
will be in 5-year increments, with a Government-led process that 
examines a person's conduct within his or her normal re-investigation 
time frames. As such, relevant security information like a recent 
arrest or conviction for a crime outside of the Federal system, for 
example, would become available on a timelier basis to security 
officials responsible for assessing a person's eligibility for access 
to Classified information, thereby helping to ensure that Classified 
information and/or Federal facilities are appropriately safeguarded. 
``Continuous evaluation'' represents a significant process improvement 
over current capabilities and will mitigate some of the limitations in 
the existing background investigation process discussed above.
    Finally, this administration's recent Information Sharing and 
Safeguarding initiative, also known as ``Insider Threat,'' seeks to 
complement background investigations and continuous evaluation with 
continuous monitoring. Continuous monitoring will incorporate data in 
near-real time from a much broader set of data sources, as compared to 
information that was previously available in the background 
investigation process. The initiative focuses on monitoring certain IT 
systems and incorporates analysis and collation software to aid in the 
identification of behavioral trends that could be indicative of an 
insider threat problem. Strict referral protocols are in place to 
investigate abnormalities. The aim is the detection and mitigation of 
threats to Classified information before any damage can be done. The 
focus of this program is the protection of Classified information, but 
its applicability to other behavioral issues, including suitability and 
contractor fitness, is evident.
    In conclusion, the suitability determinations of and access control 
to Federal facilities by Federal employees and contractors remains a 
work in progress, but is evolving toward dramatic improvement. It is 
our responsibility as DHS security leaders, with the support of 
Congress, to ensure a safe and secure workplace. We have made important 
strides, but assessing and managing employee and facility risks will 
continue to be a challenge in the future. We will continue to work 
every day to meet these challenges. Thank you again for the opportunity 
to testify today.

    Mr. Duncan. Thank you so much, Mr. Marshall.
    Ms. Durkovich. If I pronounced that wrong, just tell me--
Durkovich?
    Ms. Durkovich. You have pronounced it correctly. Thank you, 
sir.
    Mr. Duncan. Thank you so much. You are recognized for 5 
minutes.

     STATEMENT OF CAITLIN DURKOVICH, ASSISTANT SECRETARY, 
    INFRASTRUCTURE PROTECTION, U.S. DEPARTMENT OF HOMELAND 
  SECURITY, TESTIFYING ON BEHALF OF THE INTERAGENCY SECURITY 
                           COMMITTEE

    Ms. Durkovich. Thank you very much, Chairman Duncan and 
Ranking Member O'Rourke and the distinguished Members of the 
subcommittee. I am honored to appear before you today.
    As assistant secretary for infrastructure protection, I 
have the responsibility to lead the overall coordination of the 
Nation's critical infrastructure security and resilience 
efforts, including development and implementation of the 
National Infrastructure Protection Plan, or the NIPP. The NIPP 
establishes the framework for integrating the Nation's various 
critical infrastructure security and resilience initiatives 
into a coordinated effort.
    One of the most rewarding opportunities I have is to serve 
as chair of the Interagency Security Committee and oversee the 
development of standards and guidelines and best practices for 
civilian Federal facilities through the Interagency Security 
Committee, or the ISC. The ISC was created by Executive Order 
following the bombing of the Alfred P. Murrah Federal Building 
in Oklahoma City on April 19, 1995.
    The ISC is responsible for the creation and adoption of 
numerous standards, guidelines, and best practices for the 
protection of nearly 400,000 non-military Federal facilities 
across the country. This work is based on real-world present-
day conditions and challenges and allows for cost savings by 
focusing on specific security needs of the agencies.
    ISC standards provide the Federal community with strategies 
for identifying physical security measures and support the 
design and implementation of risk-based security policies. In 
August, the ISC issued the risk management process for Federal 
facilities standard, which defines the criteria and processes 
that those responsible for security should use to determine a 
facility's security level and provides an integrated single 
source of physical security countermeasures for all non-
military Federal facilities.
    The standard also provides guidance for customization of 
countermeasures for Federal facilities and explains that risk 
can be addressed in various ways, depending on agency mission 
needs, for example, the presence of child care on-site and 
historical significance. It is most important to note that the 
ISC is truly a collaborative interagency body. Fifty-three 
Federal departments and agencies participate in the ISC and 
take the lead on bringing ideas to the table and drafting 
standards and best practices.
    When agencies cannot solve security-related problems on 
their own, the ISC is a convening body for chief security 
officers and senior executives to solve continuing Government-
wide security concerns. The ISC membership develops standards 
and best practices based on real-world threats. Recent events 
have demonstrated the need to identify measures that can be 
taken to reduce the risk of mass-casualty shootings, improve 
preparedness, and expand and strengthen on-going efforts 
intended to prevent future incidents.
    DHS aims to enhance preparedness through a whole-of-
community approach, by providing resources to a broad range of 
stakeholders on issues such as active-shooter awareness, 
incident response, and workplace violence.
    Working with partners in the private sector, DHS developed 
training and other awareness materials to assist critical 
infrastructure owners and operators with better training their 
staff and coordinating with local law enforcement.
    We have hosted hundreds of workshops and developed an on-
line training tool targeted at preparing those who work in 
these buildings.
    These efforts and resources have been well-received and are 
applicable to Government facilities as well as commercial 
spaces.
    Cognizant of this growing threat, the ISC this past spring 
formed a Federal active-shooter working group. While a number 
of Federal guidance documents previously existed on active-
shooter preparedness and response, including our designed basis 
threat report, the violence in Federal workplace, a guide for 
prevention response, and occupant emergency programs, an ISC 
guide, the working group was formed to streamline existing ISC 
policies into a single cohesive document.
    To date, the working group has met four times and has 
reviewed numerous publications and guidance documents, 
including training materials developed by the Department for 
commercial facilities.
    It will also leverage lessons learned from real-world 
incidents, including the Navy Yard shooting.
    It is our intention that the resulting work will serve as a 
resource for agencies to enhance preparedness for an active-
shooter incident in a Federal facility.
    Threats to our critical infrastructure, including Federal 
facilities, are wide-ranging. Not only are there terrorist 
threats, like the bombing at the Boston Marathon this past 
spring, or the complex shopping mall attack we saw recently 
overseas, but threats from weather-related events, such as 
Hurricane Sandy, as well as threats to our cyber infrastructure 
which may have a direct impact on the security of our Federal 
buildings.
    While it is impossible to anticipate every threat, the 
Department is taking a holistic approach to create a more 
secure and resilient infrastructure environment to better 
handle these challenges, and the work of the ISC exemplifies 
these efforts.
    Ensuring our Federal facilities are secure and resilient is 
a large undertaking. But the work of our 53 member departments 
and agencies to ensure those responsible for Federal facility 
security have the tools and resources necessary to mitigate 
these threats is worth noting.
    In closing, I would like to thank you for the opportunity 
to appear before you and discuss the important work of the ISC. 
I look forward to answering any questions you may have.
    Mr. Duncan. Thank you so much.
    The Chairman will now recognize Mr. Goldstein for 5 
minutes.

      STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Good morning, Mr. Chairman and Members of 
the subcommittee. We are pleased to be here today to discuss 
our latest report on the Federal Protective Service and the 
protection of Federal facilities.
    As part of the Department of Homeland Security, the FPS is 
responsible for protecting Federal employees and visitors in 
approximately 9,600 Federal facilities.
    Sadly, recent incidents at Federal facilities demonstrate 
their continued vulnerability to attacks and other acts of 
violence.
    To help accomplish its mission, FPS conducts the facility 
risk assessments and provides oversight of approximately 13,500 
contract security guards deployed to Federal facilities.
    My testimony today is based on the results of a September 
2013 report which is being released by the subcommittee today, 
previous GAO reports on this topic and the preliminary results 
of work GAO conducted for a report that we will issue to the 
Chairman later this year.
    My testimony today discusses challenges FPS faces in 
ensuring contract security guards deployed to Federal 
facilities are properly trained and certified, and the extent 
to which FPS and select Federal agencies' facility risk 
assessment methodologies align with standards issued by the 
ISC.
    Our findings are as follows: First, the Federal Protective 
Service faces challenges ensuring that contract guards have 
been properly trained and certified before being deployed to 
Federal facilities.
    In particular, GAO found that providing active-shooter 
response and screener training is a challenge for FPS. For 
example, according to officials at five guard companies, their 
contract guards have not received training on how to respond 
during incidents involving an active shooter.
    Without ensuring that all guards receive this training, FPS 
has limited assurance that its guards are prepared for such a 
threat. Similarly, officials from one of FPS' contract guard 
companies stated that 133, about 38 percent of its 
approximately 350 guards, had never received screener training. 
As a result, those guards may be using X-ray and magnetometer 
equipment at Federal facilities that they are not qualified to 
use, raising questions about their ability to properly screen 
access control points at Federal facilities, one of their 
primary responsibilities.
    We were unable to determine the extent to which FPS' guards 
have received active-shooter response and screener training.
    Second, GAO also found that FPS continues to lack effective 
management controls to ensure its guards have met its training 
and certification requirements.
    For instance, although FPS agreed with GAO's 2010 and 2012 
recommendations that it develop a comprehensive and reliable 
system for managing information on guard's training, 
certifications, and qualifications, it still does not have such 
a system.
    Additionally, 23 percent of nearly 300 guard files that GAO 
examined, maintained by 11 of the 31 contract guard companies 
we interviewed, lacked required training and certification 
documents. Examples of missing items include documentation of 
initial weapons and screener training and firearms 
qualifications.
    Finally, GAO's preliminary results on our risk assessment 
report indicate that several agencies, including FPS, do not 
use a methodology to assess risk at their facilities that 
aligns with the ISC's risk assessment standards.
    Risk assessments help decision makers identify and evaluate 
security risks and implement protective measures to mitigate 
risk. ISC's standards state that agencies' facility risk 
assessment methodologies must, first, consider all of the 
undesirable events identified by ISC as a possible risk to 
Federal facilities, and, No. 2, assess the threat vulnerability 
and consequences of specific undesirable events.
    Most commonly, FPS and eight agencies' methodologies that 
we reviewed are inconsistent with ISC standards because they do 
not assess facilities' vulnerabilities to specific undesirable 
events. If an agency does not know its facility's potential 
vulnerabilities to specific scenarios, it cannot set priorities 
to mitigate these vulnerabilities.
    In addition, as GAO reported in August 2012, although 
Federal agencies pay FPS millions of dollars to assess risk at 
their facilities, FPS' own risk assessment tool is not 
consistent with ISC's risk assessment standards, because it 
does not assess consequence, the level, duration, and nature of 
loss, resulting from undesirable events.
    As a result, FPS and the agencies we reviewed may not have 
a complete understanding of the risks facing approximately 
57,000 Federal facilities located around the country, including 
the 9,600 facilities that FPS protects. As mentioned, our final 
report on this topic will be available later this fall.
    Mr. Chairman, this completes my statement. I would be happy 
to respond to any questions. Thank you.
    [The prepared statement of Mr. Goldstein follows:]

                Prepared Statement of Mark L. Goldstein
                            October 30, 2013

                             GAO HIGHLIGHTS

    Highlights of GAO-14-128T, a testimony before the Subcommittee on 
Oversight and Management Efficiency, Committee on Homeland Security, 
House of Representatives.

Why GAO Did This Study
    As part of the Department of Homeland Security (DHS), FPS is 
responsible for protecting Federal employees and visitors in 
approximately 9,600 Federal facilities under the control and custody of 
the General Services Administration (GSA). Recent incidents at Federal 
facilities demonstrate their continued vulnerability to attacks or 
other acts of violence. To help accomplish its mission, FPS conducts 
facility risk assessments and provides oversight of approximately 
13,500 contract security guards deployed to Federal facilities.
    This testimony is based on the results of our September 2013 report 
(released by the subcommittee today), previous reports, and preliminary 
results of work GAO conducted for a report that GAO plans to issue to 
the Chairman later this year. GAO discusses: (1) Challenges FPS faces 
in ensuring contract security guards deployed to Federal facilities are 
properly trained and certified, and (2) the extent to which FPS and 
select Federal agencies' facility risk assessment methodologies align 
with standards issued by the ISC. To perform this work, GAO reviewed 
FPS and guard company documentation and interviewed officials about 
oversight of guards. GAO also reviewed FPS's and 8 Federal agencies' 
risk assessment documentation and compared it to ISC's standards. These 
agencies were selected based on their missions and types of facilities.

What GAO Recommends
    DHS and FPS agreed with GAO's recommendations in its September 2013 
report.
   homeland security.--challenges associated with federal protective 
  service's contract guards and risk assessments at federal facilities

What GAO Found
    The Federal Protective Service (FPS) faces challenges ensuring that 
contract guards have been properly trained and certified before being 
deployed to Federal facilities around the country. In a September 2013 
report, GAO found that providing active-shooter response and screener 
training is a challenge for FPS. For example, according to officials at 
five guard companies, their contract guards have not received training 
on how to respond during incidents involving an active shooter. Without 
ensuring that all guards receive this training, FPS has limited 
assurance that its guards are prepared for such a threat. Similarly, 
officials from one of FPS's contract guard companies stated that 133 
(about 38 percent) of its approximately 350 guards have never received 
screener training. As a result, those guards may be using X-ray and 
magnetometer equipment at Federal facilities that they are not 
qualified to use, raising questions about their ability to properly 
screen access control points at Federal facilities--one of their 
primary responsibilities. We were unable to determine the extent to 
which FPS's guards have received active-shooter response and screener 
training. FPS agreed with GAO's 2013 recommendation that they take 
steps to identify guards that have not had required training and 
provide it to them. GAO also found that FPS continues to lack effective 
management controls to ensure its guards have met its training and 
certification requirements. For instance, although FPS agreed with 
GAO's 2010 and 2012 recommendations that it develop a comprehensive and 
reliable system for managing information on guards' training, 
certifications, and qualifications, it still does not have such a 
system. Additionally, 23 percent of the 276 guard files GAO examined 
(maintained by 11 of the 31 guard companies we interviewed) lacked 
required training and certification documentation. Examples of missing 
items include documentation of initial weapons and screener training 
and firearms qualifications.
    GAO's preliminary results indicate that several agencies, including 
FPS, do not use a methodology to assess risk at their facilities that 
aligns with the Interagency Security Committee's (ISC) risk assessment 
standards. Risk assessments help decision makers identify and evaluate 
security risks and implement protective measures to mitigate the risk. 
ISC's standards state that agencies' facility risk assessment 
methodologies must: (1) Consider all of the undesirable events 
identified by ISC as possible risks to Federal facilities, and (2) 
assess the threat, vulnerability, and consequence of specific 
undesirable events. Most commonly, agencies' methodologies that GAO 
reviewed are inconsistent with ISC's standards because they do not 
assess facilities' vulnerabilities to specific undesirable events. If 
an agency does not know its facilities' potential vulnerabilities to 
specific undesirable events, it cannot set priorities to mitigate these 
vulnerabilities. In addition, as GAO reported in August 2012, although 
Federal agencies pay FPS millions of dollars to assess risk at their 
facilities, FPS's risk assessment tool is not consistent with ISC's 
risk assessment standards because it does not assess consequence (i.e., 
the level, duration, and nature of loss resulting from undesirable 
events). As a result, FPS and the other non-compliant agencies GAO 
reviewed may not have a complete understanding of the risks facing 
approximately 57,000 Federal facilities located around the country 
(including the 9,600 protected by FPS).
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee: We are pleased to be here to discuss the results of our 
September 2013 report, which the subcommittee is releasing today, and 
the efforts of the Department of Homeland Security's (DHS) Federal 
Protective Service (FPS) to protect the nearly 9,600 Federal facilities 
that are under the control and custody of the General Services 
Administration (GSA). The 2012 shooting at the Anderson Federal 
Building in Long Beach, California, and the results of our 2009 covert 
testing and FPS's on-going penetration testing demonstrate the 
continued vulnerability of Federal facilities. Moreover, the challenge 
of protecting Federal facilities is one of the major reasons why we 
have designated Federal real property management as a high-risk 
area.\1\
---------------------------------------------------------------------------
    \1\ GAO, High Risk Series: An Update, GAO-13-283 (Washington, DC: 
Feb. 14, 2013).
---------------------------------------------------------------------------
    FPS is authorized: (1) To protect the buildings, grounds, and 
property that are under the control and custody of GSA, as well as the 
persons on the property; (2) to enforce Federal laws and regulations 
aimed at protecting such property and persons on the property; and (3) 
to investigate offenses against these buildings and persons.\2\ FPS 
conducts its mission by providing security services through two types 
of activities: (1) Physical security activities--conducting security 
assessments and recommending countermeasures aimed at preventing 
incidents--and, (2) law enforcement activities--proactively patrolling 
facilities, responding to incidents, conducting criminal 
investigations, and exercising arrest authority. To accomplish its 
mission, FPS currently has almost 1,200 full-time employees and about 
13,500 contract guards deployed at Federal facilities across the 
country. It expects to receive approximately $1.3 billion in fees for 
fiscal year 2013.\3\
---------------------------------------------------------------------------
    \2\ Section 1315(a) of title 40, United States Code, provides that: 
``To the extent provided for by transfers made pursuant to the Homeland 
Security Act of 2002, the Secretary of Homeland Security . . . shall 
protect the buildings, grounds, and property that are owned, occupied, 
or secured by the Federal Government (including any agency, 
instrumentality, or wholly owned or mixed-ownership corporation 
thereof) and the persons on the property.''
    \3\ To fund its operations, FPS charges fees for its security 
services to Federal tenant agencies in GSA-controlled facilities.
---------------------------------------------------------------------------
    Since 2008, we have reported on the challenges FPS faces with 
carrying out its mission, including overseeing its contract guards and 
assessing risk at Federal facilities. FPS's contract guard program is 
the most visible component of the agency's operations, and the agency 
relies on its guards to be its ``eyes and ears'' while performing their 
duties. However, we reported in 2010 and again in 2013 that FPS 
continues to experience difficulty ensuring that its guards have the 
required training and certifications. Before guards are assigned to a 
post (an area of responsibility) at a Federal facility, FPS requires 
that they all undergo employee fitness determinations \4\ and complete 
approximately 120 hours of training provided by the contractor and FPS, 
including basic training and firearms training. Among other duties, 
contract guards are responsible for controlling access to facilities; 
conducting screening at access points to prevent the introduction of 
prohibited items, such as weapons and explosives; and responding to 
emergency situations involving facility safety and security.\5\ FPS 
also faces challenges assessing risks at the 9,600 facilities under the 
control and custody of GSA. For instance, in 2012, we reported that 
FPS's ability to protect and secure Federal facilities has been 
hampered by the absence of a risk assessment program that is consistent 
with Federal standards.
---------------------------------------------------------------------------
    \4\ A contractor employee's fitness determination is based on the 
employee's suitability for work for or on behalf of the Government 
based on character and conduct.
    \5\ In general, guards may only detain, not arrest, individuals at 
their facility. Some guards may have arrest authority under conditions 
set forth by the individual States.
---------------------------------------------------------------------------
    This testimony is based on our September 2013 report, released 
today,\6\ previous reports,\7\ and preliminary results of work we 
conducted for a report that we plan to issue to the Chairman later this 
year.\8\ This testimony discusses: (1) Challenges FPS faces in ensuring 
contract security guards deployed to Federal facilities are properly 
trained and certified, and (2) the extent to which FPS and select 
Federal agencies' facility risk assessment methodologies align with 
Federal risk assessment standards issued by the Interagency Security 
Committee (ISC).\9\ To identify challenges associated with ensuring 
FPS's contract guards are properly trained and certified, we analyzed 
selected guard services contracts active as of September 2012 and FPS's 
Security Guard Information Manual. We drew a non-generalizable sample 
of 31 contracts from FPS's 117 guard services contracts (one contract 
for every guard company with which FPS has contracted for non-emergency 
guard services).\10\ A subset (11) of the 31 guard contracts was chosen 
based on geographic diversity and geographic density of contracts 
within FPS regions to allow us to conduct file reviews for multiple 
contracts during each of four site visits that we conducted. For each 
of these 11 contracts, we reviewed the contracts as well as a random 
sample of guard files associated with each contract. The remaining 20 
guard services contracts we selected were the most recent contract for 
each of the remaining guard companies that FPS had contracted with as 
of November 2012. We also interviewed officials from each of the 31 
contract guard companies.
---------------------------------------------------------------------------
    \6\ GAO, Federal Protective Service: Challenges with Oversight of 
Contract Guard Program Still Exist, and Additional Management Controls 
Are Needed, GAO-13-694 (Washington, DC: September 2013).
    \7\ GAO, Federal Protective Service: Actions Needed to Assess Risk 
and Better Manage Contract Guards at Federal Facilities, GAO-12-739 
(Washington, DC: August 2012), GAO, Homeland Security: Federal 
Protective Service's Contract Guard Program Requires More Oversight and 
Reassessment of Use of Contract Guards, GAO-10-341 (Washington, DC: 
April 2010), and GAO, Homeland Security: The Federal Protective Service 
Faces Several Challenges That Hamper Its Ability to Protect Federal 
Facilities, GAO-08-683 (Washington, DC: June 2008).
    \8\ That report will contain our final evaluation and 
recommendations about agencies' risk assessment methodologies.
    \9\ The Interagency Security Committee (ISC) was created pursuant 
to Executive Order 12977, 60 Fed. Reg. 54411 (Oct. 19, 1995), as 
amended by Executive Order 13286, 68 Fed. Reg. 10610 (March 5, 2003). 
The ISC is a permanent body established to address continuing 
Government-wide security for Federal facilities and was tasked with, 
among other things, developing security standards for Federal 
facilities. The ISC is comprised of primary members from Federal 
Executive branch agencies designated by the Executive Order as well as 
associate members from other agencies and departments not designated in 
the Executive Order. The ISC is to be chaired by the Secretary of DHS 
or a designee of the Secretary.
    \10\ When we chose contracts for review, FPS had a total of 117 
contracts with 32 guard companies. However, 1 of the 32 companies had a 
contract with FPS for only emergency guard services. As such, we chose 
1 contract for review for each company with which FPS had contracted 
for non-emergency guard services as of November 2012.
---------------------------------------------------------------------------
    To determine the extent to which contract guard companies 
documented compliance with FPS's guard training and certification 
requirements, we examined documentation related to our non-
generalizeable sample of 11 contracts, as previously discussed. From 
these 11 contracts, we randomly selected 276 guard files to review for 
compliance with FPS requirements. For each guard file, we compared the 
file documents to a list of requirements contained in FPS's 
Administrative Audit and Protective Security Officer File Review Forms, 
which FPS uses to conduct its monthly guard file reviews.
    To identify the management controls and processes FPS and the guard 
companies use to ensure compliance with training, certification, and 
qualification requirements, we reviewed FPS's procedures for: (1) 
Conducting monthly guard file reviews; (2) documenting compliance with 
guard training, certification, and qualification requirements; and (3) 
monitoring performance. We also visited 4 of FPS's 11 regions to 
discuss how regional officials ensure that guards are qualified to be 
deployed to Federal facilities. We selected the 4 regions to provide 
geographic density of contracts in the region to facilitate reviews of 
guard files, diversity in the size of guard companies, and geographic 
diversity. In addition, we interviewed officials from each of FPS's 31 
guard companies regarding their policies and procedures for complying 
with FPS's guard training and certification requirements. While the 
results of our work are not generalizeable, about 40 percent of the GSA 
facilities with guards are located in the four regions where we 
conducted our site visits and our review of guard files involved 11 of 
FPS's 31 guard companies. To assess the extent to which FPS's monthly 
guard-file review results identified files with missing documentation 
of training, certifications, and qualifications, we compared FPS's 
monthly file review results from the month in which we conducted our 
file review for each of the 11 contracts to identify guard files that 
were included in both our review and FPS's monthly review. We 
identified any discrepancies between the reviews and used FPS's file 
review forms to examine the discrepancies.
    To determine the extent to which FPS and select Federal agencies' 
facility risk assessment methodologies align with ISC's risk assessment 
standards, we reviewed and analyzed risk assessment documentation and 
interviewed officials at 9 Federal agencies and compared each agency's 
methodology to ISC's standards. The nine selected agencies include: 
Department of Energy, Office of Health, Safety, and Security; 
Department of Interior; Department of Justice, Justice Protective 
Service; Department of State, Diplomatic Security; Department of 
Veterans Affairs; Federal Emergency Management Agency; Federal 
Protective Service; Nuclear Regulatory Commission; and Office of 
Personnel Management. These agencies were selected to achieve diversity 
with respect to the number and types of agencies' facilities, as well 
as the agencies' missions.
    We conducted our on-going work from August 2012 to October 2013 in 
accordance with generally accepted Government auditing standards. Also, 
our previously-issued reports were done in accordance with these 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
   fps faces challenges ensuring contract guards have been properly 
   trained and certified before being deployed to federal facilities

Some FPS Contract Guards Have Not Received Required Training on 
        Responding to Active-Shooter Scenarios
    According to FPS officials, since 2010 the agency has required its 
guards to receive training on how to respond to an active-shooter 
scenario. However, as our 2013 report shows,\11\ FPS faces challenges 
providing active-shooter response training to all of its guards. 
According to FPS officials, the agency provides guards with information 
on how they should respond during an active-shooter incident as part of 
the 8-hour FPS-provided orientation training. FPS officials were not 
able to specify how much time is devoted to this training, but said 
that it is a small portion of the 2-hour special situations 
training.\12\ According to FPS's training documents, this training 
includes instructions on how to notify law enforcement personnel, 
secure the guard's area of responsibility, appropriate use of force, 
and direct building occupants according to emergency plans.
---------------------------------------------------------------------------
    \11\ GAO-13-694.
    \12\ This training is provided during a block of training on 
special situations, which includes information on how guards should 
respond to situations other than their normal duties, such as reports 
of missing or abducted children, bomb threats, and active-shooter 
scenarios. FPS officials stated that guards hired before 2010 should 
have received this information during guard-company-provided training 
on the guards' post orders (which outline the guards' duties and 
responsibilities) as part of basic and refresher training.
---------------------------------------------------------------------------
    However, when we asked officials from 16 of the 31 contract guard 
companies we spoke to if their guards had received training on how 
guards should respond during active-shooter incidents, responses 
varied.\13\ For example, of the 16 contract guard companies we 
interviewed about this topic:
---------------------------------------------------------------------------
    \13\ The remaining 15 guard companies did not respond to this 
question.
---------------------------------------------------------------------------
  <bullet> officials from 8 contract guard companies stated that their 
        guards have received active-shooter scenario training during 
        FPS orientation;
  <bullet> officials from 5 guard companies stated that FPS has not 
        provided active-shooter scenario training to their guards 
        during the FPS-provided orientation training; and,
  <bullet> officials from 3 guard companies stated that FPS had not 
        provided active-shooter scenario training to their guards 
        during the FPS-provided orientation training, but that the 
        topic was covered at some other time.
    We were unable to determine the extent to which FPS's guards have 
received active-shooter response training. Without ensuring that all 
guards receive training on how to respond to active-shooter incidents, 
FPS has limited assurance that its guards are prepared for this threat. 
FPS agreed with our recommendation that they take immediate steps to 
determine which guards have not received this training and provide it 
to them.

Some FPS Guards Have Not Received Required Screener Training
    As part of their 120 hours of training, guards must receive 8 hours 
of screener training from FPS on how to use X-ray and magnetometer 
equipment. However, in our September 2013 report,\14\ we found that FPS 
has not provided required screener training to all guards. Screener 
training is important because many guards control access points at 
Federal facilities and thus must be able to properly operate X-ray and 
magnetometer machines and understand their results. In 2009 and 2010, 
we reported that FPS had not provided screener training to 1,500 
contract guards in one FPS region.\15\ In response to our reports, FPS 
stated that it planned to implement a program to train its inspectors 
to provide screener training to all of its contract guards. However, 3 
years after our 2010 report, guards continue to be deployed to Federal 
facilities who have never received this training. For example, an 
official at one contract guard company stated that 133 of its 
approximately 350 guards (about 38 percent) on three separate FPS 
contracts (awarded in 2009) have never received their initial X-ray and 
magnetometer training from FPS. The official stated that some of these 
guards are working at screening posts. Further, officials at another 
contract guard company in a different FPS region stated that, according 
to their records, 78 of 295 (about 26 percent) guards deployed under 
their contract have never received FPS's X-ray and magnetometer 
training. These officials stated that FPS's regional officials were 
informed of the problem, but allowed guards to continue to work under 
this contract, despite not having completed required training. Because 
FPS is responsible for this training, according to guard company 
officials no action was taken against the company. Consequently, some 
guards deployed to Federal facilities may be using X-ray and 
magnetometer equipment that they are not qualified to use--thus raising 
questions about the ability of some guards to execute a primary 
responsibility to properly screen access control points at Federal 
facilities. We were unable to determine the extent to which FPS's 
guards have received screener training. FPS agreed with our 
recommendation that they take immediate steps to determine which guards 
have not received screener training and provide it to them.
---------------------------------------------------------------------------
    \14\ GAO-13-694.
    \15\ GAO, Homeland Security: Federal Protective Service Has Taken 
Some Initial Steps to Address Its Challenges, but Vulnerabilities Still 
Exist, GAO-09-1047T (Washington, DC: Sept. 23, 2009) and GAO-10-341.
---------------------------------------------------------------------------
FPS Lacks Effective Management Controls to Ensure Guards Have Met 
        Training and Certification Requirements
    In our September 2013 report, we found that FPS continues to lack 
effective management controls to ensure that guards have met training 
and certification requirements. For example, although FPS agreed with 
our 2010 and 2012 recommendations to develop a comprehensive and 
reliable system for contract guard oversight, it still does not have 
such a system. Without a comprehensive guard management system, FPS has 
no independent means of ensuring that its contract guard companies have 
met contract requirements, such as providing qualified guards to 
Federal facilities. Instead, FPS requires its guard companies to 
maintain files containing guard-training and certification information 
and to provide it with a monthly report containing this information. In 
our September 2013 report, we found that 23 percent of the 276 guard 
files we reviewed (maintained by 11 of the 31 guard companies we 
interviewed) lacked required training and certification 
documentation.\16\ As shown in Table 1, some guard files lacked 
documentation of basic training, semi-annual firearms qualifications, 
screener training, the 40-hour refresher training (required every 3 
years), and CPR certification.
---------------------------------------------------------------------------
    \16\ See GAO-13-694. During our non-generalizeable review of 276 
randomly-selected guard files, we found that 64 files (23 percent) were 
missing one or more required documents.

  TABLE 1.--TOTAL MISSING DOCUMENTS IDENTIFIED IN 64 OF 276 GUARD FILES
                              GAO REVIEWED
------------------------------------------------------------------------
                                                             Number of
                                                           Instances of
                       Requirement                         Each Missing
                                                             Document
------------------------------------------------------------------------
Copy of driver's license/State ID.......................               1
Domestic Violence ``Lautenberg'' Form...................               1
Medical certification...................................               1
Verified alien/immigration status.......................               3
Current baton certification.............................               3
Basic training..........................................               3
Firearms qualifications.................................               3
First-aid certification.................................               5
FPS screener training--8 hours..........................               5
FPS orientation.........................................               8
Contractor employee fitness determination...............              12
CPR certification.......................................              12
AED certification.......................................              12
Refresher training......................................              15
Pre-employment drug testing.............................              16
Initial weapons training................................              17
                                                         ---------------
      Total.............................................        \1\ 117
------------------------------------------------------------------------
Source.--GAO analysis of contract guard company data.
Note.--These results are non-generalizeable and based on a review of 276
  randomly-selected guard files for 11 of 117 FPS guard contracts.
\1\ Some of the files that did not comply with requirements were missing
  more than one document, for a total of 117 missing documents.

    FPS has also identified guard files that did not contain required 
documentation. FPS's primary tool for ensuring that guard companies 
comply with contractual requirements for guards' training, 
certifications, and qualifications is to conduct monthly reviews of 
guard companies' guard files. From March 2012 through March 2013, FPS 
reviewed more than 23,000 guard files.\17\ It found that a majority of 
the guard files had the required documentation but more than 800 (about 
3 percent) did not. FPS's file reviews for that period showed files 
missing, for example, documentation of screener training, initial 
weapons training, CPR certification, and firearms qualifications. 
However, as our September 2013 report explains, FPS's process for 
conducting monthly file reviews does not include requirements for 
reviewing and verifying the results, and we identified instances in 
which FPS's monthly review results did not accurately reflect the 
contents of guard files. For instance, FPS's review indicated that 
required documentation was present for some guard files, but we were 
not able to find documentation of training and certification, such as 
initial weapons training, DHS orientation, and pre-employment drug 
screenings.\18\ As a result of the lack of management controls, FPS is 
not able to ensure that guards have met training and certification 
requirements.
---------------------------------------------------------------------------
    \17\ FPS has approximately 13,500 contract guards, but FPS may 
review a guard file more than once annually.
    \18\ For more information on this review and our methodology, see 
GAO-13-694.
---------------------------------------------------------------------------
GAO's Recommendations to Improve the Management and Oversight of FPS's 
        Contract Guard Program
    In our September 2013 report, we recommended that DHS and FPS take 
the following actions:
  <bullet> take immediate steps to determine which guards have not had 
        screener or active-shooter scenario training and provide it to 
        them and, as part of developing a National curriculum, decide 
        how and how often these trainings will be provided in the 
        future;
  <bullet> require that contract guard companies' instructors be 
        certified to teach basic and refresher training courses to 
        guards and evaluate whether a standardized instructor 
        certification process should be implemented; and,
  <bullet> develop and implement procedures for monthly guard-file 
        reviews to ensure consistency in selecting files and verifying 
        the results.
    DHS and FPS agreed with our recommendations.
preliminary results indicate that fps and select federal agencies' risk 
   assessment methodologies do not align with isc's risk assessment 
                               standards
    Risk assessments help decision makers identify and evaluate 
security risks and implement protective measures to mitigate the 
potential undesirable effects of these risks. ISC's risk assessment 
standards state that agencies' facility risk assessment methodologies 
must: Consider all of the undesirable events identified by ISC as 
possible risks to Federal facilities, and assess the threat, 
vulnerability, and consequence of specific undesirable events. 
Preliminary results from our on-going review of 9 Federal agencies' 
risk assessment methodologies indicate that several agencies, including 
FPS, do not use a methodology that aligns with ISC's risk assessment 
standards to assess Federal facilities.\19\
---------------------------------------------------------------------------
    \19\ ISC's risk assessment standards define ``Federal facilities'' 
as Government-leased or -owned facilities in the United States occupied 
by Federal employees for non-military activities. Aside from 
intelligence-related exceptions, Executive branch agencies and 
departments are required to cooperate and comply with ISC's standards, 
including its risk assessment standards. These standards do not apply 
to Legislative branch agencies and Federal facilities occupied by 
military employees.
---------------------------------------------------------------------------
    Most commonly, agencies' methodologies are not consistent with 
ISC's standards because agencies do not assess their facilities' 
vulnerabilities to specific undesirable events. For example, officials 
from one agency told us that their vulnerability assessments are based 
on the total number of protective measures in place at a facility, 
rather than how vulnerable the facility is to specific undesirable 
events, such as insider attacks or vehicle bombs. Because agencies' 
risk assessment methodologies are inconsistent with ISC's risk 
assessment standards, these agencies may not have a complete 
understanding of the risks facing approximately 57,000 Federal 
facilities located around the country--including the 9,600 protected by 
FPS and several agencies' headquarters facilities.\20\
---------------------------------------------------------------------------
    \21\ For example, if an agency's methodology does not consider all 
the undesirable events identified by ISC, and/or it does not assess all 
three components of risk (threat, vulnerability, and consequence), then 
the agency would have an incomplete picture of risk at facilities 
assessed using this methodology.
---------------------------------------------------------------------------
    Moreover, because risk assessments play a critical role in helping 
agencies tailor protective measures to reflect their facilities' unique 
circumstances and risks, these agencies may not allocate security 
resources effectively, i.e., they may provide too much or too little 
protection at their facilities. Providing more protection at a facility 
than is needed may result in an unnecessary expenditure of Government 
resources, while providing too little protection may leave a facility 
and its occupants vulnerable to attacks. For example, if an agency does 
not know its facility's potential vulnerabilities to specific 
undesirable events, it cannot set priorities to mitigate them.
    In addition, we reported in 2012 that although Federal agencies pay 
FPS millions of dollars to assess risk at their facilities, FPS's 
interim facility assessment tool--the Modified Infrastructure Survey 
Tool (MIST)--was not consistent with Federal risk assessment standards 
and had other limitations. Specifically, FPS's risk assessment 
methodology was inconsistent with ISC's risk assessment standards 
because it did not assess the consequence of possible undesirable 
events (i.e., the level, duration, and nature of loss resulting from 
undesirable events). FPS officials told us that MIST was not designed 
to assess consequence, and that adding this component would have 
required additional testing and validation. However, without a risk 
assessment tool that includes all three components of risk--threat, 
vulnerability, and consequence--as we have recommended, FPS has limited 
assurance that facility decision-makers can efficiently and effectively 
prioritize programs and allocate resources to address existing and 
potential security risks.\21\ Furthermore, because MIST also was not 
designed to compare risks across facilities, FPS has limited assurance 
that it prioritizes and mitigates critical risks within the agency's 
portfolio of more than 9,600 Federal facilities.
---------------------------------------------------------------------------
    \21\ FPS agreed with our 2012 recommendation, but has yet to 
implement it.
---------------------------------------------------------------------------
    This concludes our testimony. We are pleased to answer any 
questions you, Ranking Member Barber, and Members of the subcommittee 
might have.

    Mr. Duncan. Well, I thank you so much, Mr. Goldstein and 
all the witnesses for your excellent testimony.
    Mr. O'Rourke is recognized.
    Mr. O'Rourke. Mr. Chairman, I ask unanimous consent that 
the gentlewoman from Texas, Ms. Jackson Lee, be allowed to sit 
and question the witnesses at the hearing's end.
    Mr. Duncan. Without objection, so ordered.
    The Chairman will now recognize himself for 5 minutes.
    My intent today is, since we do have a small committee, 
active committee today, is just to allow us to delve into the 
issue. We are going to try to adhere to the 5-minute rule, but 
I will allow some leeway, because I do want some questions 
answered and I want you to have--to feel free to--to really get 
into the subject, but within reason. So.
    What I would like to do is I want to go to the Navy Yard 
shooting, Director Patterson, first, and ask you a question 
about how a FPS officer actually engages an active shooter or 
doesn't engage.
    Then I will back up and start delving into the background 
checks and what we do to make sure this doesn't happen.
    I realize that we have a lot of Federal facilities. I also 
realize that risk assessment is generally looking at keeping 
someone from breaking into the facility from outside, and this 
was a unique inside access issue with the Navy Yard shooter.
    So, now we have had to think about that sort of thing 
versus a typical risk assessment of a facility, looking at the 
entries and exits and the guards, the personnel necessary to 
secure the premises.
    But now we have got a different scenario to think about.
    So, according to your response letter to GAO's report, 
Director Patterson, a protective service officer, or PSO's, 
actions if unable to visibly see an active shooter, they are 
dictated by his or her post orders. Although armed, a PSO is 
not supposed to engage in tactics associated with law 
enforcement response.
    So, could you please explain in further detail what steps a 
PSO is supposed to take in an active-shooting situation?
    Mr. Patterson. Yes, sir, I sure can.
    Well, first of all, sir, I just want to let you know that 
our No. 1 priority is the protection of the people in the 
Federal facility. That is No. 1.
    The first--in the event of an active-shooting situation, 
the first step to be taken by the PSO, because that is our 
first line of defense, will be to call our megacenter, to allow 
them to pass that information on to our megacenter. That is 
where the information is passed that will allow not only that 
information to be passed to our inspectors, but also to local 
law enforcement, that there is a situation that is evolving or 
taking place in that facility.
    Mr. Duncan. Excuse me, just a second. Will you do that by 
landline or would that be a radio comm?
    Mr. Patterson. It will be both, sir. He will do it by 
landline and then by radio comm.
    Mr. Duncan. Okay.
    Mr. Patterson. So that we have a general awareness of what 
is going on. Then there will be an assessment by that PSO as to 
what action that he needs to take next.
    Our PSOs are trained to take action in emergency 
situations. Because they are not Federal or State law 
enforcement officials, they are constrained by--the contractor 
is constrained by State law as to what he or his company can do 
in these situations. So that is why we don't have what we call 
active-shooter training, if you will, where our PSOs will go 
out and actively pursue an active shooter.
    However, if we come across a situation where that PSO is 
the only individual in that facility and has no reasonable 
expectation that law enforcement can respond in a reasonably 
quick manner, then that individual will more than likely take 
action to limit the damage of the active shooter.
    Mr. Duncan. Let me ask this, because as you were talking, I 
am trying to envision--you have an active shooter in a building 
like the Navy Yard. The PSO hears the shots, understands lives 
are possibly threatened, picks up the phone, calls his 
supervisor to try to get permission or at least let them know 
what is going on, but then try to get permission on how to act 
beyond his post orders.
    Does the same thing with radio comms. Coordination between 
the PSOs within the facility. While these bureaucratic, seems 
to me bureaucratic, steps are put in place or being activated, 
are lives not threatened even further during that? Is there a 
delay, I guess is what I am asking? Does that put the public 
safety at risk?
    Mr. Patterson. Unfortunately, sir, the challenge here is 
that we don't know what is really happening and neither does 
the PSO. So he has a responsibility to the people in that area. 
His responsibility is to ensure that he can get either--keep 
people from coming into the building or getting people out of 
the building.
    So he has got a job to do right there. In this case, we are 
hoping, we believe that we are going to have a quick response 
by either Federal law enforcement, our folks, or by the State 
and local, if they are in the area. If the situation dictates 
that we believe that we are in a remote area and we don't think 
that someone is going to be able to come quickly, then he will 
take action.
    Mr. Duncan. Right, and I get that. We had a conversation 
yesterday with staff about that scenario. The PSO actually 
securing his entry-door exit, but also making sure that an exit 
is available for personnel within the building to flee the 
scene and make sure no one--another active shooter doesn't come 
in as part of a team. So I get all that.
    Mr. Patterson. Right.
    Mr. Duncan. I just want to make sure there is not a delay. 
You have answered that question fairly well.
    So I want to go to Mr. Marshall and ask, if for any reason 
an individual is deemed a threat, and I know with the Navy Yard 
shooter, there was some evidence there, but whether it got to 
the proper person to make that decision is still being 
investigated. You know, how we miss those signals.
    But if an individual is deemed a threat, are you able to 
deactivate their access credential remotely? Talk me through 
the process of how their credentials are pulled or their access 
is denied and limited, if you could.
    Mr. Marshall. Yes, sir. If derogatory information about an 
individual reaches us, we will investigate it and we will take 
the necessary steps to make sure that if that person is deemed 
a threat after the investigation, we can deactivate their card. 
Not only their card, but we can also deactivate their access in 
whatever physical security access system or PACS system that 
that person has access to.
    That can be done remotely, yes, sir.
    Mr. Duncan. That is on a swipe. But let's talk about maybe 
a flash pass or some credential that they may have on their 
persons. I guess at this point an actual supervisor would take 
that, if it was a termination issue.
    If it was an issue where they were going to restrict their 
access, would they be issued an additional credential, a 
different color, a different code on there, which I think is 
important? How would that be handled?
    Mr. Marshall. No, sir. If derogatory information reached 
us, and it was deemed to be good information, we would 
deactivate their card, both their card and also the access 
system. We would bring them in and read them out, if they had a 
security clearance, we would read them out.
    So they would not only not have access to Classified 
information any longer, they would also not have access to 
facilities. An added step that we would take, once we would 
deactivate their access, we would also do something called a 
``do not admit''. That is a couple of different things. We 
would go into our personnel security system, which is an 
enterprise system, and make a notation in their record in the 
personnel security system that they no longer have a clearance 
or access to facilities.
    We would also notify the buildings or the locations where 
that person primarily has a mission responsibility, and we 
would send a flyer with that individual's picture on it and 
circumstances surrounding that person's removal of access to 
that facility. So everybody would be notified.
    Mr. Duncan. Yes. I think this has some implications with 
how we deal with TSA and access Air Force training Mr. Hudson 
may get into. Because I think we are looking at the whole scope 
of access and whatnot.
    Just my last question--you told the subcommittee staff at a 
recent meeting that DHS lacks information on access control 
systems across the DHS facilities. Headquarters is in the 
process of compiling this information from its components. But 
10 years after the Department's creation, it is unclear to me 
why DHS headquarters would not know how to access DHS 
facilities, how that is controlled throughout the Department.
    So what is going on now? Is there some sort of uniformity, 
some sort of activity now to--listen, I go to a lot of Federal 
buildings here in this city and I know that access to every 
building is different. Whether they are DHS-coordinated or 
whether GSA handles that.
    So what is going on? Are we looking for uniformity? Are we 
looking for changes to those systems? If you could just tell me 
that.
    Mr. Marshall. Yes, sir. That is exactly what we are doing, 
Congressman. We are moving towards a federated system.
    Obviously, you know DHS is a legacy agency. We are formed 
of agencies that were already in existence. As a result of that 
legacy heritage, everybody had their own PACS systems, their 
own access controls systems, and they are all completely 
different.
    So the first order of business when the Homeland Security 
Presidential Directive 12 was implemented was to issue the PIV 
cards. Because there is no sense in changing out all the 
readers unless everybody had the card to use on the reader.
    So that was a heavy lift. We issued over 250,000 PIV cards 
with the help of the components. Everybody has a PIV card now.
    So then the next step, the next phase was to roll out an 
implementation of these legacy systems and eliminating them 
altogether. Last fall, I issued a--with the help of my staff--
issued a PACS modernization strategy for DHS, which includes 
headquarters and the eight components. That directed all the 
components' chief security officers to develop implementation 
plans on their strategy for switching out the PACS systems and 
the readers.
    They were required to submit implementation plans by early 
2013. They all did. Now we are moving towards the roll out, the 
switching out of the readers.
    Headquarters, which I have oversight over, direct oversight 
over, we have 34 facilities. All 34 facilities have been 
switched out. We now have HSPD-12 compliant readers in all the 
headquarters facilities.
    FLETC, which is one of our components, it switched out all 
their facilities. FEMA, which I am happy to say is leading the 
effort with this, were the first to switch out all their 
readers.
    So we have--we are at various degrees of completion in this 
whole process. I know ICE has started to switch out their 
readers. They are at approximately 12 percent of switching out, 
so they have begun their roll out.
    I know TSA has begun their roll out. They are approximately 
at 12 percent. Citizen Immigration Service, they are right 
behind TSA and ICE, they are at about 9 percent.
    So mostly the larger agencies like CBP and Coast Guard and 
the Secret Service, to some degree, they are following close 
behind. But the important thing to know for this committee is 
that we have already begun that roll out and a lot of the 
components are looking for funding streams to accelerate the 
roll out, but we are well on our way.
    Mr. Duncan. Yes, well, let me just say that I understand 
the enormity of the number of Federal buildings across the 
Nation that you are charged with trying to protect. It is going 
to take a while. But I am glad to see a task force is looking 
at that.
    My final question--you mentioned 3,200 personnel security 
guards have been trained. Where are they trained? Is that 
private training and what is the process of certifying that 
training facility? Or do they go to FLETC? Are they trained by 
some sort of Governmental agency? Or is it all private?
    Mr. Marshall. Is that question for me, sir?
    Mr. Duncan. Yes.
    Mr. Marshall. Okay.
    Mr. Duncan. I think you are the one that said 3,200 
officers have been trained.
    Mr. Marshall. That wasn't me, sir.
    Mr. Duncan. Okay. Was that Director Patterson?
    Mr. Patterson. I am sorry. What was the context of the 
question, sir? I am sorry.
    Mr. Duncan. Well, regardless, how are the contract 
personnel, the officers, trained? Are they trained at FLETC or 
are they trained by private contractors? How is that facility 
certified? I don't care who answers.
    Mr. Patterson. Yes, sir, I can answer that. Yes. Our 13,000 
contracting guards are trained in a couple of ways. One, much 
of the training is done in-house by the contractor. But second, 
we also, as FPS, our inspectors also are trained as trainers to 
go out and provide much of the--some of the training as well.
    For instance, firearms training is conducted by the 
contractor, but overseen by a firearms instructor from FPS. So 
there is some oversight where they are in fact doing the 
training. So there are a number of training venues where you 
have the contractor who is providing the training, but FPS is 
providing oversight for that training.
    Mr. Duncan. They are looking at the total curriculum, not 
just firearms training?
    Mr. Patterson. Yes, sir. That is exactly--yes, we look 
across the spectrum. Now, there are some things that we just 
leave to the contractor. It might be CPR. We probably don't 
need to be involved in that and a few other things, but for the 
most part, yes, we do have oversight.
    Mr. Duncan. Thank you.
    The Chairman will recognize Mr. O'Rourke, the acting 
Ranking Member, for questions.
    Mr. O'Rourke. I want to thank the Chairman again for making 
today's hearing possible. I recognize that the true Ranking 
Member has just arrived. I am going to keep my questions brief, 
and then we will yield this chair to him.
    But on this issue of balance, almost each of you mentioned 
a risk-based approach and trying to balance the costs and 
benefits both in dollars and security, and what it is we get 
out of that. So, for Director Patterson, what kind of metrics 
do you have or what numbers do you use to know whether or not 
we have struck that right balance?
    Then I want to ask a follow-up question on what you are 
doing to implement some of the recommendations made by the GAO 
with respect to that. But first, I would like to ask you to 
respond to that question about balance and how you measure 
that.
    Mr. Patterson. Sure. Well, you know, we have over 9,500 
Federal facilities that we are responsible for protecting. Of 
those facilities, there are a large number that are what we 
call facilities, security level 4, which really are a very high 
priority. So we have to take a look at how we dedicate 
resources to those facilities and doing assessments at those 
facilities over a period of time.
    So, we have a metric there that we look at those number of 
facilities and how often we get to take a look at and use a 
risk-based method, if you will, for how often we do surveys at 
those facilities. Currently, we are surveying those facilities, 
doing security facility security assessments approximately 
every 3 years at our most sensitive and vulnerable, what we 
feel to be, high-risk facilities.
    But however, we are applying a risk-based model to look at, 
you know, what are the real vulnerabilities there; what is the 
threat; and do we really have to continue to expend really 
scarce resources on doing it every 3 years, or could we extend 
that out a little bit? So, we do have a metric there to look at 
and work with the security council at those facilities to look 
at what is the right mix of service that we provide relative to 
the assessment process.
    Mr. O'Rourke. Let me ask you a question, sorry to interrupt 
you.
    Mr. Patterson. Yes.
    Mr. O'Rourke. You know, on one end of the spectrum, you 
could pat down every single person who enters a Federal 
facility; search every square inch of their cars they are 
driving into a Federal garage. On the other end, you could wave 
everybody through without taking any precautions. When you have 
an event like the Navy Yard's shooting, how does that change 
your assessment? How does that factor into looking at what you 
are already doing right now? How does that change your 
procedures and your policies? How does that change what you are 
willing to spend on it or what you are willing to ask for to be 
spent on it?
    Mr. Patterson. Yes, we look at that very carefully. I will 
tell you, you know, when an individual is given a PIV card, 
there is a level of trust that the Government says that we are 
giving to you based upon a background investigation. We still 
have confidence in that background investigation process until 
we find out that it is not serving us well. We still think--
believe that it has served us well.
    So, as far as doing anything that would be beyond, or 
moving beyond the current process that we utilize to bring 
people into the building, we are looking at our processes. We 
are evaluating them, but we think that they still hold true 
relative to the protection that they provide us based on the 
background investigation.
    Mr. O'Rourke. Last question. In terms of GAO findings that 
we weren't assessing risk at a number of Federal facilities; 
some of the training issues that the Chairman has brought up, 
do you agree with those conclusions and findings? Is your plan 
over the coming year to actively address those based on those 
conclusions reached in that report?
    Mr. Patterson. Yes, sir. We have been addressing these 
since 2010. What we are looking at is a multitude of ways that 
we can approach the myriad of challenges that we have in this 
area. We are looking at how we leverage technology. We are 
looking at how we bring on more folks in specialized areas like 
contract oversight that will help us to better understand what 
is going on in our contracts.
    We are looking at how we refocus the day-to-day efforts of 
our inspectors to help us better understand how we can move 
forward in providing a better service to our customers. So yes, 
sir, we are, but we have been working on this since 2010 and we 
have still got some ways to go, but I think we are making a lot 
of progress.
    Mr. O'Rourke. Thank you.
    Mr. Chairman, I yield back.
    Mr. Duncan. I thank the gentleman from Texas, and now 
recognize the gentleman from North Carolina, the Chairman of 
the Transportation Security Subcommittee, Mr. Hudson, for 5 
minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    I want to thank our panel for being here today. I 
appreciate your time and expert testimony.
    Director Patterson, thank you for your service to our 
country. One of the statements you made was that PSOs are 
constrained by State law in terms of what they can do in 
response to an incident. Can you help me understand that, maybe 
give me an example of a State law that would prevent PSOs from 
engaging an active shooter?
    Mr. Patterson. Yes, sir. That would be in the use of 
firearms. They are regulated--the States regulate the way that 
they--what they can do and the use of their firearms. So, 
because they are not Federal law enforcement officers, they 
don't carry the same statutory authority as we do to go in and 
take charge of searches in certain situations.
    So, State laws will dictate whether or not a PSO has the 
authority to go in and take certain actions that would normally 
be performed by a law enforcement officer.
    Mr. Hudson. Has there been any analysis of the impacts of 
that? I assume, you know, there are certain States that we are 
all aware of that have more strict gun control laws.
    Mr. Patterson. Right. As a result of the Navy Yard 
shooting, we are looking at that and working with our 
contracting office. We are working with the legal folks, as 
well as internally within DHS to take a look at, is there 
something that we can do to maybe move beyond where we are now 
to actually provide our contracting guards active-shooter 
training so that it will in fact allow them to go out, pursue, 
and function as a law enforcement officer would?
    Mr. Hudson. I appreciate that.
    I guess the follow-up question would be, as you look at, I 
guess each State has different ways you can respond. I am still 
concerned, though, that there is not--seems to be widespread-
enough active-shooter training for these guards, even if you 
can't engage with a firearm. It seems like running through 
scenarios and having training on how to deal with this type of 
scenario would still be beneficial.
    Mr. Patterson. Yes, sir. I totally agree. We are doing 
that. We are looking at what training--we are working with the 
security companies now to look at, you know, how we can deliver 
that training and what training would be beneficial to them. 
Yes, sir, we are doing that.
    Mr. Hudson. Great. I think that is important.
    What role did FPS play in the Navy Yard shooting 
specifically? Could you maybe give us a little more details, 
sort-of how that played out and what your role was in that 
incident?
    Mr. Patterson. Yes, sir. Well, we didn't play an active 
role. What we did is when we received a notification that in 
fact there was an active shooter at the Navy Yard, we did 
recognize at that point--well, first of all, we were part of 
the incident command center where the District of Columbia, 
where the Defense Department and other Federal agencies had a 
command center to more or less--information would pass back and 
forth. So we put someone there so that we were in full 
cognizance of what was going on.
    We also recognized at that point that we had a Federal 
facility that was adjacent, the Department of Transportation is 
adjacent to the Navy Yard.
    So we immediately contacted and worked with the Federal 
folks there, and looked at whether or not we needed to shut 
down the building and control access, and we did.
    So, from that standpoint, what we did was we ensured that 
we had complete control of the Federal facilities around the 
Navy Yard, so that there was no egressor or someone coming in 
that we--that shouldn't, as well as standing by for any 
assistance that the folks at the Navy Yard might need.
    Eventually, they did call us and ask for some canine 
support that we provided. So we sent over a couple of our bomb 
dogs to assist with their activities over there, as they were 
working--going through the buildings to assess whether or not 
the shooter had left some explosive devices.
    Mr. Hudson. Thank you.
    Mr. Marshall, according to several news reports, radios 
failed law enforcement once they got inside the facility that 
day. What has been done or is being done to ensure this problem 
doesn't exist for Federal Protective Service or other Federal 
partners?
    Is there a radio interoperability issue that we need to be 
aware of?
    Mr. Marshall. Well, let me caveat my answer, Congressman, 
with, first of all, I haven't been briefed on the Navy Yard 
incident first-hand, so everything I know about what happened 
there, is anecdotal.
    But I--what I can speak on interoperability to some degree: 
We learned some lessons, obviously, from 9/11, about the 
inability of the NYPD and FDNY to interoperate during that 
incident, so much so that it caused a lot of State and local 
police departments around the United States to address that 
issue.
    In my former agency, I was actually in charge of addressing 
that issue, going to an 800-megahertz radio system so that we 
could interoperate with our regional partners and our allied 
law enforcement agencies.
    Specifically to your question, I did hear, second-hand, 
that there were some interoperability problems at the Navy 
Yard. I can speak, first-hand, about what actions I have taken 
with respect to that issue at DHS headquarters.
    I am fortunate enough at headquarters to have a cadre of 
law enforcement officers who are FLETC-trained with full arrest 
powers. We work in conjunction with the Federal Protective 
Service and the contract guard force there.
    We also have a great relationship with the Metropolitan 
Police Second District that services the facility on the 
Nebraska Avenue complex.
    So I asked that question right after the Navy Yard. There 
are some interoperability issues that we are addressing.
    The first thing we did was, we have an opportunity to join 
the regional police mutual aid radio network, also known as 
PMARS. I first became acquainted with PMARS when I was a U.S. 
Capitol police officer, back in the 1980s. So the U.S. Capitol 
Police is a member of that organization.
    So I have petitioned the Metropolitan Council of 
Governments to become a member of the PMARS system. I believe 
our application will be accepted, and hopefully when that is 
implemented, we will be able to push a button, or somebody will 
be able to push a button and everybody can go to a single talk 
group and be able to address any kind of incident that might 
occur.
    Mr. Hudson. Appreciate that.
    Mr. Chairman, I see I am out of time, so I yield back.
    Mr. Duncan. I thank the gentleman.
    Now, the Chairman will recognize the Ranking Member, the 
gentleman from Arizona, Mr. Barber. Welcome to the committee 
hearing. I know you had a mark-up today. As we mentioned 
earlier, a lot of Members did. But I am glad you were able to 
make it, and I recognize you for 5 minutes.
    Mr. Barber. Thank you, Mr. Chairman.
    Thanks to the witnesses. I am sorry I wasn't here to hear 
your testimony in person, but I do have a couple questions. 
They may have been asked and answered, but I would like to 
explore them.
    Let me start, if I could, with Mr. Goldstein.
    The question, first of all, is: Based upon your review of 
the security screening processes at Federal facilities, what is 
your view of a need for a uniform standard, no matter what the 
facility, where it is? Do you believe that we need to have that 
imposed across all Federal facilities?
    Mr. Goldstein. We haven't looked specifically at whether 
that policy would be beneficial or not. But I can tell you that 
the variety of systems used throughout the Federal facilities 
combined with the fact that many officers, contract guard 
officers have not been fully trained, certainly does not give 
FPS or the public or workers, Federal employees, assurance that 
the facilities are well-protected.
    Those things combined I think do create problems for the 
Government.
    Mr. Barber. Well, let me follow up on what you just said 
about training and the perhaps inadequacy of the training, 
particularly with the companies under contract to provide 
security services.
    Could you give a couple of examples--you may have already 
done it in your earlier testimony--of what you found in regard 
to the training, of deficiencies with the security companies 
that have been under contract with DHS?
    Mr. Goldstein. Yes, sir. We found in our review, in the 
report that is being released today, that several contract 
guard companies that we interviewed did not have any experience 
with FPS providing them the active-shooter training or the 
screener training, both of which are required in their 
contracts.
    Mr. Barber. Having said that, let me ask Mr. Patterson a 
follow-up question regarding that.
    Every contract that the Federal Government lets has 
expectations, I presume has performance standards. Could you 
tell us what the expectations and the performance standards are 
for contractors with regards to training of their personnel?
    Mr. Patterson. Yes, sir. We have an expectation that every 
guard who stands post at a magnetometer or X-ray machine will 
be trained. Period.
    Now, there are not X-ray machines and magnetometers at 
every post. So, there could conceivably be, quite frankly, a 
number of posts, a number of guards, who aren't necessarily 
trained on X-ray and magnetometer services who are serving on 
duty because they are not at one of those posts.
    But our expectation is that if you are standing post at an 
X-ray or magnetometer, you will be trained in that service.
    Mr. Barber. Beyond that, I assume the contracts have some 
specificity regarding other aspects of training the personnel.
    Mr. Patterson. Yes, sir. There are about 13 certifications 
that each PSO must have in order to take a position as a 
contract guard, from firearms to CPR to, in some cases, 
magnetometer and X-ray machine, safety, and things of that 
nature.
    Mr. Barber. So in order to get out in front of a problem 
that apparently has been identified by the GAO, in other words, 
finding those companies that have not fully met their 
commitments under the contract, what can you, what have you 
been doing proactively to find out where those deficiencies are 
identified?
    What, if any, contract requirements, in terms of any 
reimbursement to the Federal Government or any potential loss 
of contract--what happens, first of all, do you find it; 
second, what happens when you find there is a problem with a 
contract agency?
    Mr. Patterson. Yes, sir. There are a number of things that 
we do. First of all, our inspectors conduct what we call post 
inspections. That means they go out to the facilities and they 
talk to the guards and validate through a number of ways their 
training. They actually--we are required--it is an FPS 
requirement for us to review at least 10 percent per month of 
all of the contractor training records for a particular 
geographic area.
    So if we, within a particular FPS region, that regional 
director is required to go out and review at least 10 percent 
of those records.
    One of the challenges that we have had is that there have 
been some inconsistencies in the process in which we review 
those records. So we are getting that together now and figuring 
out and going about a, or moving forward in a more uniform 
manner in how we review those records.
    Currently, I have directed a--we are conducting a 100 
percent audit in four of the regions to take a look at how--and 
when I say 100 percent, I am talking about 100 percent right 
now. We are not gonna wait 10 percent, 10 percent, 10 percent. 
It is 100 percent within the next few months--2 months, within 
4 of our regions, so that we can validate and look at what, in 
fact, our contractors are delivering to us, relative to the 
training that they say that they are.
    So, we are also developing, working with the Department of 
Homeland Security Science and Technology group a way that we 
can electronically validate and track this, so that I don't 
have 600 of my law enforcement guys out trying to track down 
over 160,000 training records, okay?
    It is inefficient and ineffective right now.
    So what we are trying to do is better--instead of having to 
plow through these records every month, to create an electronic 
system where these records can be folded into the system and 
then we can review them that way without having to send our 
folks to physically go and touch each record. Because it takes 
a lot of time. Quite frankly, the records can change. Records 
expire, they change. So in effect, when you have got 160,000 
records at any given time, some of those records can be out of 
date, just because they expire over time.
    Mr. Barber. Well, I thank you. My time is up, but I just 
want to urge you to continue this aggressive action to make 
sure that everyone is trained to a standard, because that is 
one way for sure that we can hope for the protection to be 
universal across all Federal facilities.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. I thank the gentleman.
    The Chairman will now recognize Ms. Jackson Lee, the 
gentlelady from Texas, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, let me thank both you and 
Mr. Barber for your courtesies and how timely a meeting this 
is. I thank you so very much.
    I hope that the witnesses, let me thank you for your 
testimony, will view the work of this committee, this 
subcommittee in particular, but the full committee Chairman and 
Ranking Member, as partners in excellence. I see this hearing 
as an attempt for excellence on behalf of the American people.
    Certainly, although we know that the jurisdiction of the 
Navy Yard falls in particular under DOD, and we know that there 
is a pending investigation, let me just say for the record two 
things before I pose my questions.
    One, I hope that this committee will have another--I know 
that we had some conversation, a secured briefing on the Navy 
Yard circumstances. Second, as a Member of Congress, I am 
always disturbed no matter what administration it is to rebuff 
members by talking about a pending investigation. We are sworn 
as officers of this Nation. We take an oath. We take a signed 
statement on Classified information. But more importantly, that 
is an easy way to hinder our oversight, which is it is a 
pending investigation.
    Well, a pending investigation could last for eternity. As I 
reflect on having been here for 9/11, what we discovered and 
should have been discovered--maybe it should have been 
discovered preceding the heinous and horrific tragedy if there 
was the appropriate interaction between the levels of 
government with the Members of Congress both House and Senate.
    So, I hope that the pending investigation of the Navy Yard 
will either move quickly or that the persons engaged will 
recognize that we, as Members of Congress, have a 
responsibility to the American people and those lost souls to 
be able to provide immediate solutions and resolutions. Which 
lies in the questioning that I wish to pose and hopefully will 
have the time to do so, as I thank all of the Members who are 
here.
    One, like the Ranking Member of the full committee, I 
believe that we should be enormously concerned of the securing 
of the Federal buildings that are throughout America. You could 
look at the Navy Yard as a Federal entity. It had a different 
jurisdiction, but it was penetrated, as was the Fort Hood in my 
State, which we continue to mourn the loss of military 
personnel and civilians who should have technically been on the 
safest place--one of the safest places in America.
    So, my question is to follow up on the training of those 
who protect. I am reminded of the Holocaust Museum, which is I 
guess semi-private, semi-public, but let me go further into how 
do we get a handle on training those who are then contracted-
out on these Federal buildings? FPS contracts out. How do we 
get a handle? Is there an inventory of all of these 
contractors? Is there a set training structure for all of those 
contractors? One question.
    The second question is: Do we do continuous training of 
these individuals that are hired? I want to say to those in the 
Mickey Leland Building in Houston and FPS, we respect and thank 
you for your great service. We want to make it better.
    Last, this is a discussion I had with Chairman Duncan. I 
would like to know from Homeland Security how you would 
perceive having the responsibility of doing your background 
check? Do you do your own background check? Could it not be 
placed under the Office of Management to be able to have 
control over the contractors that you contract, and also your 
employees?
    It is a simple task. Mr. Chairman, I know that I am down at 
the limit, but I would ask for the ability for these 
individuals to answer the question.
    Mr. Duncan. I will grant a little leeway.
    Ms. Jackson Lee. I thank you.
    I haven't told--I will start with the gentleman from GAO, 
but I would like a response from the interagency and others who 
jump in on this last question dealing with the background 
checks.
    Mr. Goldstein. Ma'am, the work we have done that we are 
presenting to the committee today doesn't actually get into the 
issue of background checks. It was focused on the training and 
the certification of the contract guards. So I am not really in 
a position to answer that.
    Ms. Jackson Lee. Yes, I wasn't asking you that. You answer 
the question that you are able to do, which is the training of 
the contractors and how often. I want other members to answer 
the background checks question. Thank you.
    Mr. Goldstein. Certainly.
    We do feel that more attention to training and 
certification on the part of FPS is required. Much of the 
training that the contract guard companies say they are not 
getting is training related to active shooters and to other 
screening that is presented by FPS.
    To some degree, there has been an issue of shortages among 
personnel to get out to all the contractors, but to be fair, 
they have had a number of years. We first raised the issue of 
screener training about 4 years ago when we did penetration 
testing at Federal facilities around the country and were able 
to get bomb-making materials into 10 Federal buildings in 4 
cities.
    So this has been an open issue now for a number of years. 
So, to still have Federal Protective Service contract guards at 
Federal facilities who don't have the required training to be 
in front of the machines they are using, this does not bode 
well.
    Ms. Jackson Lee. Again, the rest of the members there, 
answer the question about do you do your internal background 
checks, do you continuously have background checks on your 
contractors? Do you believe with a structural change, maybe the 
collaboration of this committee to internalize the background 
checks on both contractors and on your own staff for homeland 
security?
    Mr. Marshall. Yes, ma'am, I can answer that question.
    Everybody who works for the Department of Homeland 
Security, both the Federal employee or contract employee, has 
to have either a suitability determination or a fitness 
determination. Essentially what that is is that even though 
they are called two different things, the criteria is the same. 
We are trying to determine if that person belongs in DHS and is 
suitable for employment, and is in the best interest of the 
agency and for the efficiency of Government.
    We look at things like conduct in past employment, criminal 
history, alcohol and drug abuse, that type of thing; whether or 
not the person has engaged in any activities that are contrary 
to U.S. interests and so forth.
    With respect to contractors, they undergo the fitness. We, 
DHS, we adjudicate for that fitness determination. If that 
contractor has to have a security clearance, a National 
security clearance, that is conducted by the Department of 
Defense, Defense Security Service. They have jurisdiction over 
those investigations under the National Industrial Security 
Program.
    So, we do the fitness and we do the adjudication for the 
fitness to determine if that person is suitable, but any kind 
of security clearance falls under the purview of the Department 
of Defense.
    Ms. Jackson Lee. So after you do your clearance, if they do 
not need a National security clearance, that person is hired.
    Mr. Marshall. Correct.
    Ms. Jackson Lee. Do you do it for the contractors as well?
    Mr. Marshall. Yes, ma'am. That is correct. If there is no 
derogatory information developed, that person is deemed to be 
suitable to enter on duty and they can come on-board.
    Ms. Jackson Lee. May I ask Ms. Durkovich, you were tasked 
by President Clinton to--the agency was tasked to set certain 
standards for Federal buildings. Where is that in terms of its 
implementation and oversight of the security of Federal 
buildings throughout the Nation, I assume, working on the 
security protocols for all of the Federal buildings?
    Ms. Durkovich. Thank you. That is a very good question, 
Congresswoman.
    We have been hard at work for the last 17 years working 
with our 53 member agencies to develop a set of physical 
security criteria that is included in our risk-management 
process for Federal facilities. This is applicable to 399,000 
non-military Federal buildings across the United States. Our 
member companies--our member organizations are responsible for 
developing these standards.
    Our risk-based process for Federal facility standards 
includes six key elements, the first of which is establishing 
the Federal security level for a building. That is driven by 
the function of that particular building, the agencies that 
reside in it, the people who pass through it, the iconic and 
historical significance of that building.
    Once that physical security level is set, we look at the 
baseline standards and measures and mitigation measures that 
are applicable to that building, and then look at 31 different, 
what we call design basis threat scenarios. So it ranges from 
active-shooter scenarios to arson to water to small aircraft. 
Based on those scenarios and physical--the facility security 
level, the facility is responsible for implementing the 
physical security criteria.
    All of the member agencies, according to the Executive 
Order, shall comply with the standards that they develop. So I 
would say over the course of the last 17 years, we have been 
very successful in helping implement a baseline security 
standard for non-military Federal facilities.
    Ms. Jackson Lee. What is the oversight? Who is checking?
    Ms. Durkovich. At this juncture, we do not have the 
resources to do formal compliance. Many of our member agencies 
have developed risk assessment tools that allow them to ensure 
that they are in compliance with these standards.
    We are looking at ways to begin more of a soft compliance 
effort, but again, the Executive Order requires our member 
agencies to comply with the standards that this interagency 
body develops.
    Mr. Duncan. Ms. Jackson Lee, we may have time for another 
round of questions. So I----
    Ms. Jackson Lee. But can I just thank you very much for 
your courtesies? I would just like to put one question on the 
record. I will not ask for an answer. I didn't hear from Mr. 
Patterson. That one question on the record, if we could get an 
answer, is: Does FPS do--FPS, does it do continuing background 
checks on its contractors once the contract is given? Is there 
an on-going check on the individuals that are utilized?
    Mr. Chairman, Mr. Barber, thank you for your courtesy.
    Mr. Duncan. Thank you, Ms. Jackson Lee.
    That is a question we can have answered.
    I am going to go into a second round of questioning. I know 
Members do have a lot of interest in this subject, including 
myself.
    I want to follow up on--I recognize myself for 5 minutes--I 
want to follow up on an issue that Mr. Hudson brought up about 
the radios, because I think that is important, communications 
inside of a building and communication with local law 
enforcement is tremendously important.
    In my State, the Palmetto State, South Carolina, we learned 
after Hurricane Hugo that law enforcement needs to be able to 
communicate all across the State. I believe with a homeland 
security grant back after 9/11, the State of South Carolina 
went to an 800-megahertz radio system that we had highway 
patrol and DNR, and local sheriffs' agencies were all able to 
communicate in the event of an emergency.
    I understand that inside the District of Columbia, FPS may 
not want to hear all the chatter that is going on on the Hill 
and at the White House and at every other Federal building. 
That could be a little overwhelming if you were having to 
monitor all of that. But in the event of an active shooter, can 
they communicate with other law enforcement personnel about 
what is actually going on?
    So I am going to ask Mr. Marshall if you could just follow 
up on that. What are we doing? What steps are we taking to 
address the issue raised by the gentleman from North Carolina?
    Mr. Marshall. Congressman, I would like nothing better than 
to have an 800-megahertz radio capability within DHS. Speaking 
first-hand, like I said, I have implemented that in the local 
police department here in Maryland, a neighboring police 
department. The capabilities are tremendous with an 800-
megahertz radio system.
    You don't have to listen to, like you said, all the chatter 
at the Federal buildings and so forth. But in the event of an 
active shooter, you would be notified to go to a specific talk 
group, everybody involved in that incident, say. Let's use the 
DHS headquarters, for example, on Nebraska Avenue. If, God 
forbid, something were to happen at DHS headquarters, we can 
notify our colleagues at the Federal Protective Service, 
Metropolitan Police Second District, my force protection group, 
to all go to a specific talk group to handle that incident.
    You are absolutely right. That capability is vital in any 
kind of incident.
    Mr. Duncan. Would something like an 800-megahertz system be 
able to penetrate most of the walls so most of the Federal 
facilities would be able to communicate?
    Mr. Marshall. Yes, sir. In my experience now, obviously, we 
would have to do something called acceptance testing. We would 
have to--once we were able to acquire that capability, we would 
have to go to certain spots on a grid and test the radio to 
find out where those dead spots might be. But from my 
experience, it works in like 99 percent of the locations, at 
least where I came from.
    But again, that capability is vital. So if that is 
available, I know those 800-megahertz frequencies are like 
hen's teeth. They are hard to get your hands on, because I 
think most of them are taken up. But I believe the Metropolitan 
Police is on an 800-megahertz system. If for some reason we 
could--or some, you know, capability to attach ourselves to the 
Metropolitan Police or, for that matter, Federal Protective 
Service or any other Federal Government agency who has that 
800-megahertz frequency, that would be the ideal situation in 
the District of Columbia.
    Mr. Duncan. Right. Well, thanks for that. I may have taken 
Mr. Hudson's question, but it was on my mind.
    I want to ask you one other thing. Mr. Marshall, what have 
we learned about background checks and information flow that 
would affect clearances like we saw with the Navy Yard shooter, 
where local law enforcement, even supervisory positions within 
the agency they worked for, they had indicators?
    So how does that--what have we learned? How does that 
information flow down to the person that makes the decision on 
who gets clearances or not? Just tell me what we have learned 
and how we are applying it.
    Mr. Marshall. Okay. First of all, you mentioned the local 
agencies. One of the things I have always been troubled with 
with respect to local agencies is that there are roughly 
between 18,000 and 20,000 police departments or law enforcement 
agencies, sheriffs, local police, State police, and Federal 
agencies within the United States.
    The thing that has troubled me about what, the information 
we receive from the State and locals and the Federals, is that 
not all of those agencies contribute to, like, the FBI CJIS 
system. A person can be arrested in your State, the Palmetto 
State, and some small police department. They may not be a 
contributor to the FBI database. So that when we go to do our 
agency checks and our fingerprint checks, we may not have 
access to that information of that person's arrest within South 
Carolina.
    So, that is a gap. That is a gap that I think can be 
remedied. I don't know what it would take, maybe legislation 
perhaps, but that if we can get more of these agencies--and I 
don't know what percentage that are out there that don't 
contribute. But I believe it is large enough that we could 
probably close that gap somewhat by maybe encouraging, 
legislating for these folks to contribute, particularly if they 
get Homeland Security money.
    Now, with respect to the second part of your question, 
again, I wasn't briefed on the Navy Yard shooting specifically. 
But what I know through the media accounts and some anecdotal 
comments or conversations I have had with other people, from 
what I know, Mr. Alexis had a security clearance with the Navy. 
When he left the Navy, it was still an in-scope clearance, 
meaning that the investigation was within the required time 
frame in order for the organization he was going to to accept 
that investigation on reciprocity.
    We are required by Executive Order in the Federal 
Government to accept security clearances on reciprocity if 
there is an investigation that we can point to. The one thing 
about reciprocity is that we are also required to accept it on 
its face. We are not allowed to do any additional checks unless 
we have information--derogatory information to the contrary.
    So, it looks to me, not having been briefed, that the 
contracting company accepted Mr. Alexis's security clearance on 
reciprocity, which was one gap, without having to do additional 
checks. That also there was a faulty investigation. There was 
information within the investigation that was done by a private 
contractor that wasn't accurate.
    So, it was almost like a perfect storm. It was a gap that 
was--it was unfortunately hard to overcome.
    Mr. Duncan. Yes, we are human. I get that.
    Mr. Marshall. Yes, sir.
    Mr. Duncan. Timing is everything. So, I don't have any 
further questions. I will ask the gentleman from North Carolina 
if he would like to follow up with a 5-minute question.
    Mr. Hudson. Thank you, Mr. Chairman.
    I guess I would like to maybe get back to this issue of 
communications between, you know, FPS and the local and State 
agencies. Mr. Marshall mentioned there are 18,000 to 20,000 law 
enforcement agencies around the United States.
    In terms of passing along warnings, intelligence, 
information about suspects, could you, Mr. Marshall, and also 
Director Patterson answer if you like, maybe talk about what 
the gaps are that exist there, whether it is information flow 
from DHS down or from local law enforcements up, FPS, back and 
forth.
    What are the gaps in communications? What are the real 
challenges?
    I know some were highlighted with the Boston bombing 
incident, others may--we may have learned lessons from the Navy 
Yard. But what are some of the challenges we are facing when it 
comes to that up-and-down communication?
    Mr. Marshall. Well, Congressman, we are very fortunate in 
the Washington, DC, area to have so many law enforcement 
agencies, both Federal and local, and, of course, the regional 
county police departments.
    We are all members of that fraternity here, within this 
region. I believe we communicate very well together. We are all 
part of different working groups and organizations, 
intelligence organizations.
    So, I believe our sharing capability is a good one here, 
within this region.
    Where I have seen some gaps during my time here is when you 
get outside of this D.C. area and you deal with people who are 
coming in from other parts of the country. We don't always 
communicate well in that regard.
    We rely heavily on information from the criminal justice 
information system. If we see somebody suspicious, obviously, 
we would rely on a radio check for, you know, a criminal 
history check or a radio check, wants and wanted type of BOLOs 
and so forth.
    But regionally, I think we are okay. It is when we get 
outside of this region where I don't think we share often as 
well as we should.
    Mr. Hudson. Director Patterson.
    Mr. Patterson. Yes, sir. I would agree with Mr. Marshall 
that within the region here, I think we do a pretty good job.
    Part of the challenges that we have in FPS is that, as you 
well know, we are in 50 States. Some of our inspectors have to 
travel a very long way to move from facility to facility, 
sometimes between States.
    The challenge there sometimes is that the radio--the 
connectivity that they have when they leave one State to go to 
another State, we lose it.
    So we have to work within those States or with other 
Federal agencies to try to help us bridge between the 
facilities, sometimes, that our inspectors may travel.
    On the intelligence side of things, though, I think we do 
pretty well, because we try to link up with each one of the 
States' fusion centers, as many as we can. We have people that 
are linked and members of the joint terrorism task forces.
    So relative to threat information and those kind of things, 
we think we move that information fairly well up and down and 
have pretty good access.
    It is sometimes--what concerns me sometimes is just the 
ability and officer safety issue of, can my officer or can my 
inspector communicate or call for help if, in fact, he runs 
into a problem, if he is maybe somewhere in the northern tier, 
where it is--he is right out in the middle of nowhere and help 
is a bit of ways away, and he has got to figure out which radio 
he is or how he is gonna communicate back to ask for help?
    We are working that. We are working within the Department, 
and we are working with State and local as well as other 
Federal agencies, again, to bridge those gaps where we 
recognize them.
    Mr. Hudson. Appreciate that. Obviously I think this 
committee is very concerned about this issue, so please keep us 
informed as you move forward with this.
    Just to sort-of redirect a little bit, Ms. Durkovich, you 
talked a little bit about sort-of different facilities that are 
leased or owned by GSA and the different security level 
depending on the type of facility.
    You talked about the fact that ISC has set security 
standard guidelines for these non-Federal--or non-military 
Federal facilities.
    How well does the Federal Protective Service, in your 
opinion, follow these policies? Does their adherence differ 
based on the different type of location of the Federal 
facilities?
    Ms. Durkovich. Let me begin--and, first of all, thank you 
very much for that question--but by saying that FPS is an 
active member of the Interagency Security Committee.
    We have worked over the course of the last several years, 
both at--within the Office of Infrastructure Protection, but 
certainly with--within ISC to help them understand and 
implement the various standards, guidelines, and practices that 
we develop. Certainly, as they have worked to develop their own 
assessment tool, it has been done with the ISC standards in 
mind.
    I would say that they do a very good job. Again, it varies 
on the facility security level and the measures that are 
implemented at each of those facilities. But they have to work 
very closely with the facility security committee within each 
of those buildings to ensure that they are providing a level of 
security that is consistent with the Federal security level and 
the standards that are outlined by the ISC.
    They are, again, a very active participant in the ISC. They 
sit on a number of our standing committees, on a number of our 
working groups, to include the active-shooter working group. 
They recently chaired a working group on prohibited Federal 
items, which has become a standard for Federal facilities 
across the Nation, and have worked very closely with us with 
some best practices on armed security guards.
    So they are an active, robust member, again of the ISC, and 
I think do a very good job of implementing the standards and 
best practices that we promulgate.
    Mr. Hudson. Thank you.
    Mr. Chairman, thanks for the leeway. I will yield back.
    Mr. Duncan. Thank you, Mr. Hudson.
    The Chairman will recognize the Ranking Member for the last 
and final questions.
    Mr. Barber. Thank you, Mr. Chairman.
    Once again, thanks to our witnesses this morning for your 
testimony and for the work you are doing to make sure that 
Federal facilities, the people who work in them, and the people 
who come to them are properly protected.
    I just wanted to continue with a question for Mr. Patterson 
regarding what you are doing proactively, I guess, to probe and 
test how well safety and security standards are being 
implemented.
    Within the context of this open hearing, you may not be 
able to say all, but what can you tell us about what you are 
doing proactively to find out whether or not these facilities 
are following the standards that have been established?
    What do you do when you find that they are not?
    Mr. Patterson. Sir. Yes, sir.
    Well, one of the things that we are doing proactively is 
that we are creating something called a portfolio approach for 
each one of our inspectors. That means that the inspector will 
take ownership of a series of buildings, okay, and within those 
buildings will have responsibility to ensure that he or she are 
meeting with the facility security committees and others in 
there to ensure that we are, No. 1, in compliance or that they 
are in compliance with whatever standards that have been set 
forth for that facility.
    So that is a very proactive approach by us to ensure that 
we don't miss anything in a movement forward to better 
understand how we can, if you will, better do our job.
    We are working with the NASCO, the National Association of 
Security Companies, in looking at how we can collaborate, how 
we can partner in working in training our PSOs, relative to 
giving them the best training, better training, and to fill in 
the gaps that were pointed to today by the General Accounting 
Office, so that the next time that we come before this 
committee, we are not talking about some of the challenges that 
we are having there, because we have, in fact, taken a 
proactive approach in filling that, because we are working 
collaboratively with the security companies.
    We are also looking at partnering with local law 
enforcement in areas, departments, to help us in our response 
times, to ensure that when there are challenges for our 
inspectors to get to Federal facilities, that we do have an 
agreement and a partnership with them that they will respond 
sometimes when we cannot.
    So there are a myriad of things that we are looking for as 
moving forward to ensure that we have a very comprehensive 
approach to how the people, which are the most important thing, 
are protected in those facilities in the event of something 
bad, if you will.
    Mr. Barber. Does your proactive work include deliberately 
trying to breach these securities?
    Mr. Patterson. Yes, sir, we have a program called the 
covert testing program, where we actually have--we have a 
number of scenarios that we introduce through the system when 
we, through the magnetometer, X-ray, and it is done by our 
special agents, who are trained in introducing these objects.
    Once--you know, if there is a failure, then what we do is 
we work with the contractor to, No. 1, that we have identified 
a failure. Then we work to train those individuals so that 
there is an understanding of what just happened, what did we 
just do? How do we fix this? How do we rectify the situation so 
that it doesn't happen again?
    Sometimes we have to do it more than once, quite frankly, 
to--it is the process of standing behind a magnetometer X-ray 
machine, it can be a perishable skill if you are not doing it 
often.
    So one of the things that we are doing proactively is to 
work with the contractors to look at, you know, how often this 
training is being delivered to them? Then we are gonna look at 
how often we are testing that, and then using a metric there to 
see how well we are performing in that area.
    Mr. Barber. Let me just ask you one last question before my 
time expires.
    Mr. Patterson. Sure.
    Mr. Barber. Obviously, every Federal agency has been asked 
to not only tighten their belt but cinch it up so tight you can 
hardly breathe.
    What impact have budget cuts or appropriation reductions 
had on your ability to get the job done?
    Mr. Patterson. We are still able to get the job done, sir. 
You know, we have to work smarter. We look to how we leverage 
technology to do things that maybe we had done using an 
individual, and now--so, we are getting the job done, even with 
the sequestration and some of the budget cuts that have been 
coming. I am confident that we will continue to be able to 
effectively get the job done as we move forward.
    Mr. Barber. Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. I want to thank the committee Members for their 
participation today, and thank the witnesses. As we mentioned, 
I think the goal of the hearing was to provide oversight of the 
DHS, and what it is currently doing to make sure that we 
protect Federal facilities, and what steps, if any, need to be 
taken to make sure that instances like the Navy Yard don't 
happen at any other Federal facilities.
    I want to thank you for your leadership and your valuable 
testimony today. You answered a lot of questions for us as we 
delved into that. So I want to thank you for that, and the 
Members for their valuable questions.
    Members of the subcommittee may have additional questions. 
We ask that you respond to those in writing.
    Without objection--any other questions, or without 
objection, the subcommittee will stand adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Question From Chairman Jeff Duncan for L. Eric Patterson

    Question. What is the status of the standardized National Lesson 
Plan for guards, and the revising of the Security Guard Information 
Manual (SGIM)?
    When will the National Lesson Plan for guards be implemented?
    Answer. The Federal Protective Service (FPS) recognizes that 
ensuring that Protective Security Officers receive quality training is 
key to the success of the FPS protective mission. As such, FPS is 
working with the National Association of Security Companies (NASCO) to 
conduct a curriculum review of all Protective Security Officer (PSO) 
training. This review will consider long-standing requirements 
pertaining to PSO training and will result in a comprehensive PSO basic 
training curricula complete with written and performance measures. FPS 
anticipates that the PSO National Lesson Plan will be finalized and 
available for implemention in fiscal year 2015. The Security Guard 
Information Manual (SGIM) is undergoing a complete revision and will be 
released as the FPS Protective Security Officer Security Manager and 
Resource Tool (SMART) Book. An updated version of the SMART Book is 
expected to be released by the end of the second quarter of fiscal year 
2014.

     Questions From Ranking Member Ron Barber for L. Eric Patterson

    Question 1. Does FPS conduct on-going evaluations of both its 
contract guards and Federal workforce?
    Answer. The Federal Protective Service (FPS) conducts rigorous and 
continuous Protective Security Officer (PSO) contract performance 
monitoring through various methods, including post inspections, 
administrative audits, monitoring of contractor-provided training and 
firearms qualifications, penetration tests, and obtaining customer 
feedback. FPS adheres to policies and procedures to ensure proper 
contract monitoring, including FPS Directive 15.9.1.3 ``Contract 
Protective Security Force Performance Monitoring'' and Office of 
Procurement Operations (OPO) Procurement Operating Procedure (POP) 
403R4 ``Contractor Performance Assessment Reporting and Procedure''.
    FPS Contracting Officers have the ability and authority to take 
contractual actions to address contractor performance that does not 
comply with contract terms and conditions. Specifically, FPS employs 
remedies available under the Federal Acquisition Regulations and within 
the terms of its contracts to address contractor performance issues. A 
number of remedies are available for a contractor's non-performance or 
unacceptable performance in FPS PSO contracts. Remedies include, but 
are not limited to monitoring of contractor corrective action plans, 
assessing monetary deductions, directing removal of a contractor 
employee from performing under a contract, electing not to exercise a 
contract option, or terminating a contract for default or cause.
    To ensure robust contractor oversight, FPS is currently in the 
process of hiring and training 39 Contracting Officer Representatives 
(COR). CORs will assist FPS Contracting Officers in identifying adverse 
contract performance and taking timely corrective action.
    FPS adheres to the performance management regulations established 
by the Office of Personnel Management, and guidelines of the Department 
of Homeland Security and National Protection Programs Directorate to 
evaluate Federal employee performance.
    Question 2. Mr. Patterson, what protocols are used by FPS' facility 
security officers and facility security committee members to determine 
which standards to implement at Federal facilities?
    Answer. The Federal Protective Service (FPS) provides Facility 
Security Committee members with recommendations as part of the FPS's 
Facility Security Assessment (FSA) process. FPS designed its FSA 
process to meet the requirements of the Interagency Security 
Committee's (ISC) Risk Management Process for Federal Facilities. The 
FSA report provided by FPS includes an assessment of threats and 
vulnerabilities, and a comparison of the baseline level of protection 
called for in the ISC process with the existing level of protection at 
the facility, and FPS's recommendations for countermeasures to mitigate 
risk.
    FPS has also established an FSA steering committee to ensure 
consistency in implementation of the FSA program. The primary mission 
of the Steering Committee is the coordination of all FSA-related 
standards, programs, and operational applications. The Steering 
Committee serves as the FSA consultation entity, providing 
clarification and updates on development of the FPS FSA program. The 
Steering Committee also assists FPS Regions with guidance on the 
implementation of FSA reports, policies, and applications.
    Question 3. How does FPS intend to address the shortcomings of its 
risk assessment methodology as identified by GAO, particularly its 
absence of a component to assess consequence?
    Answer. The Federal Protective Service (FPS) has incorporated the 
Interagency Security Committee's (ISC) Risk Management Process for 
Federal Facilities into its current Facility Security Assessment (FSA) 
process. Specifically, the FSA process includes the ISC's Facility 
Security Level (FSL) Determinations, Physical Security Criteria for 
Federal Facilities, and the Design Basis Threat as incorporated into 
the Modified Infrastructure Survey Tool to identify and mitigate 
vulnerabilities. FPS also conducts a threat assessment and provides a 
Threat Assessment Report as part of each FSA, to ensure that 
stakeholders have an understanding of the threats they face.
    While potential impacts are considered as part of the FSL 
determination, FPS is continuing to explore the inclusion of 
consequence into the process. Quantifying applicable categories of 
consequence for Federal facilities and incorporating them into an 
algorithm in an assessment tool, however, is currently not feasible as 
there is not a body of work existing to facilitate such development. 
FPS continues to work with the ISC to explore consequences and impacts 
in the context of Federal facilities and missions.
    Question 4a. FPS has a long history of budget woes due to its 
reliance on fees, and a workforce that has too many contract guard 
staff. Further, GAO has documented that FPS' contract guard staff has 
been about 13,000 since 2001.
    What is the current ratio of contract guard to Federal guard staff 
at FPS?
    Question 4b. What elements are contained in FPS' contracts 
pertaining to the training curriculum used by private firms to train 
and certify guards?
    Answer. To accomplish its protective mission, the Federal 
Protective Service (FPS) employs Law Enforcement Personnel as well as 
contract Protective Security Officers (PSOs) who work in tandem to 
attend to daily security needs at Federal facilities and respond to 
threats directed against the facilities or the personnel working within 
them. Law Enforcement Personnel and PSOs have separate, but 
complementary, roles and responsibilities in ensuring Federal facility 
security.
    FPS directly employs approximately 1,007 Law Enforcement Personnel 
who are trained physical security experts and sworn law enforcement 
officers employed directly by the Federal Government. Law Enforcement 
Personnel perform a variety of critical functions, including conducting 
comprehensive security assessments of vulnerabilities at facilities, 
developing and implementing protective countermeasures, and providing 
uniformed police response and investigative follow-up. FPS Law 
Enforcement Personnel also conduct PSO guard post inspections on a 
daily basis.
    FPS also contracts approximately 13,000 PSOs, often referred to as 
``security guards.'' PSOs are responsible for controlling access to 
Federal facilities, detecting and reporting criminal activities, and 
responding to emergency situations.
    PSOs also ensure prohibited items, such as firearms, explosives, 
knives, and other dangerous weapons, do not enter Federal facilities. 
It is important to note that PSOs are not sworn Law Enforcement 
officers. FPS works with the private guard companies to ensure the 
guards have met the certification, training, and qualification 
requirements specified in the contracts. These include, but are not 
limited to, FPS orientation, National Weapons Detection training, 
weapons qualification for both lethal and non-lethal weapons, FPS Basic 
Training, which covers subject areas such as defensive tactics, legal 
authorities, and response to incidents such as workplace violence, and 
bomb threats, and any State, local, and customer-specific requirements.
    It is important to note that the FPS does not unilaterally 
determine the total number of PSOs Nationally. Rather, the FPS works in 
partnership with tenant Facility Security Committees to build a 
consensus regarding the number of guard posts appropriate for each 
individual facility. The number of posts is determined by a number of 
factors, including a facility's security level, Facility Security 
Assessment, and the security needs and preferences of tenant agencies.

       Questions From Chairman Jeff Duncan for Caitlin Durkovich

    Question 1. Ms. Durkovich, in your role as chair of the Interagency 
Security Committee, what steps are you taking to make sure that Federal 
agencies are compliant in utilizing the committee's standards for 
physical security?
    Answer. Executive Order (EO) 12977 states that each executive 
agency and department shall cooperate and comply with the policies and 
recommendations of the Interagency Security Committee (ISC) issued 
pursuant to the order, but at this time the committee does not have the 
resources to carry out enforcement for nearly 400,000 facilities 
Nation-wide. The ISC relies on agencies to conduct their own compliance 
as required by the EO.
    That said, the ISC is examining potential options to support 
agencies' compliance efforts and is currently reviewing internal member 
agencies' best practices and lessons learned to develop a strategy to 
propose to the ISC membership. This work is being conducted through the 
ISC's Lessons Learned and Best Practices Working Group; a group 
established as a result of Government Accountability Office (GAO) 
Recommendation Report GAO 12-901 Federal Real Property Security--
Interagency Security Committee Should Implement a Lessons Learned 
Process.
    Additionally, the ISC has also developed a strategy for Federal 
departments and agencies to ensure risk assessment data tools are 
compliant with ISC standards. To date, one tool has been certified as 
ISC compliant and another tool is in the queue for certification.
    Question 2. Please explain the actions your staff is taking to 
increase the rate of utilization of the committee's standards.
    Answer. The ISC is developing an outreach strategy to improve 
engagement, marketing, and training efforts. The plan defines the goals 
and objectives of future outreach efforts; specifies the target 
audience of outreach activities; and describes outreach options. This 
strategy also consists of a number of on-line training programs, 
personal interaction, printed materials, and on-line communications.
    The ISC currently relies on Chief Security Officers (CSOs) and 
working group representatives to share information about ISC standards 
and best practices. The ISC is developing an enhanced outreach plan to 
increase awareness and improve marketing and training efforts. The plan 
will increase marketing activities, providing CSOs with materials they 
can share with their facilities, as well as new on-line training 
programs, on-line communications, and greater personal interaction.
    Question 3. How do you evaluate the outcomes of your agency's 
outreach efforts in terms of measuring Federal agencies' usage of the 
Interagency Security Committee's standards?
    Answer. As noted above, the ISC is currently assessing and 
enhancing its outreach efforts. The Interagency Security Committee 
Outreach Strategic Plan will provide a foundation for the ISC's 
implementation of outreach activities to increase awareness, 
understanding, and use of the ISC Standards, guidelines, best 
practices, and white papers among Federal agencies. The ISC developed a 
plan that defines the goals and objectives of future outreach efforts; 
specifies target audiences; and describes three categories of outreach 
options: Printed materials, personal interaction, and on-line 
communications which is consistent with the GAO's recommendations. An 
important aspect of the ISC's outreach is training and the ISC is 
currently doubling training available to Federal agencies. Both on-line 
and in-person training will be amplified through implementation of the 
plan. The implementation of the outreach plan will enable the ISC to 
better measure the most effective and efficient approach for increasing 
awareness, understanding, and application of the ISC standards.

          Question From Chairman Jeff Duncan for Greg Marshall

    Question. During the October 30 hearing, you discussed remotely 
deactivating access credentials if a change in an individual's 
suitability occurs. To clarify, how long does the deactivation process 
take? Can it be done in real time to avoid potential threat?
    Answer. The deactivation process can be done in real time and from 
remote locations. Execution of this access removal process includes the 
revocation of the individual's Personal Identification Verification 
Card (PIV card) in the Identity Management System (IDMS), suspension of 
access in the electronic physical access control system (PACS) that 
services the component who employs the individual, and updates to 
security guard post orders to include ``Do Not Admit'' instructions 
associated with the individual. Manual notifications are provided via 
email and/or telephone to all respective organizational points of 
contact to support facilities where either visual inspection or 
electronic verification is performed. Automated PIV card revocation 
checks is a functionality that is supported by the IDMS. DHS is 
currently working to deploy this capability to all the components.

       Questions From Ranking Member Ron Barber for Greg Marshall

    Question 1. Mr. Marshall, please explain to the committee what 
standards are involved in granting individuals' access to Federal 
facilities. Also, what process is used to identify and individual as 
being suitable for Federal employment?
    Question 2. Also, please describe to the committee how the mental 
health of an individual is taken into consideration when making a 
determination about his or her suitability for Federal employment?
    Answer. All individuals working for or on behalf of the DHS must 
undergo a background investigation with favorable results. In order for 
an individual to gain access to a DHS facility, a criminal history 
check with favorable results must be completed. For issuance of a PIV 
card, the background investigation must be initiated in accordance with 
Homeland Security Presidential Directive 12 requirements.
    DHS adheres to all Federal regulations and guidelines for 
suitability for Federal employment. DHS uses the criteria set forth in 
5 Code of Federal Regulations, Part 731, to assess an individual's 
suitability. The individual completes security paperwork, Standard Form 
(SF) 85P, and undergoes a background investigation. Based on the 
suitability criteria, an adjudicative determination is made whether the 
individual will promote the integrity and efficiency of the service.
    Currently, there are no requirements for individuals to report 
mental health information when applying for Federal employment for non-
cleared positions; however, OPM does permit agencies to use the SF 85P-
S supplemental form for positions that require the carrying of a 
firearm. This supplemental questionnaire does require individuals to 
report consultation with mental health professionals and/or health care 
providers regarding a mental health condition. Otherwise, when DHS 
adjudicates a background investigation, the mental health condition of 
an individual is only considered to determine eligibility for access to 
National security information. It is reviewed when the individual 
chooses to report this information on standard security form SF-86, or 
during investigative interviews and other records checks. In cases 
where mental health information is not reported in an investigation by 
the individual, references, or by review of records, potential mental 
health issues are not examined. This poses a vulnerability and risk to 
the Department.
    In National security clearance investigations, DHS can obtain 
mental health records when the information is reported either on the 
security forms or through investigative interviews. This is in 
accordance with Executive Order 12968, Access to Classified Information 
and its implementing guidance. Additionally, the Adjudicative 
Guidelines for Determining Eligibility for Access to Classified 
Information requires DHS to evaluate an individual's ability to handle 
and protect National security information. DHS renders adjudicative 
determinations for access to classified material.
    When evaluating the information, DHS must apply the adjudicative 
criteria, which includes evaluating whether an individual's mental 
health condition adversely affects the individual's judgment and 
trustworthiness to safeguard classified information.
    Question 3. Mr. Marshall, what authority and access do you as a 
security professional have to the mental health records of individuals 
seeking approval for access into Government facilities, or to be 
cleared for Federal employment?
    Answer. As a security professional, I do not have categorical 
access to mental health records for the approval of access into DHS 
facilities or to be cleared (suitable) for Federal employment. In 
National security clearance investigations, DHS can only obtain mental 
health records when the information is reported either on security 
forms or through investigative interviews, and then only with the 
consent of the individual being investigated and the cooperation of the 
provider. At DHS, when applicants submit their security forms, included 
in their packages are signed release forms that allow investigators the 
ability to pursue information reported by the applicants on their SF 86 
or other security/suitability questionnaire. The applicant's signature 
signals ``consent'' and the intent of the applicant for mental health 
providers to ``cooperate'' with any investigation. This is in 
accordance with Executive Orders and implementing guidance.
    Question 4. With regard to suitability assessments, does the 
Department contract with private firms to conduct background checks? If 
so, who is responsible for vetting contractors who conduct the checks?
    Answer. Yes, the Department does contract with private firms to 
conduct background checks. The Office of Personnel Management and the 
Department of Defense have oversight responsibility for the background 
investigation contract workforce. OPM delegates investigative authority 
to certain DHS components, who then employ contract background 
investigators. It is a requirement of the delegation that contract 
investigators must have been appropriately adjudicated. The Department 
of Defense has responsibilities regarding the security clearance 
adjudications of contract employees under the National Industrial 
Security Program. DHS accepts reciprocity of the investigation and 
adjudication of contract background investigators.

         Questions From Chairman Jeff Duncan for Mark Goldstein

    Question 1. Your testimony noted that taxpayer dollars may be put 
at risk because of problems with FPS's risk assessment process. 
Specifically, you said that these problems may result in facilities 
with too much or too little protection.
    On this issue, I think back to earlier in the year when many were 
alarmed by FPS's presence at protests outside IRS buildings. How does 
the risk assessment process impact FPS's responses to specific events, 
such as peaceful protests?
    Answer. Risk assessments, which are among FPS's physical security 
responsibilities, allow FPS to determine which protective measures 
should be in place at a facility. Responding to events/incidents, such 
as peaceful protests, is among FPS's law enforcement responsibilities. 
While the risk assessment process does not directly influence how FPS 
responds to specific events, it allows FPS to determine whether and 
what types of protective measures are needed to help mitigate the risks 
associated with these events.
    Question 2. How does the fact that FPS collects fees for certain 
services impact the oversight performed by DHS? Do you think because 
FPS collects fees for certain security services that less oversight is 
conducted by DHS than if the programs were based on appropriations?
    Answer. We have not conducted the work necessary to answer this 
question. For information on FPS's fee design, proposed alternatives, 
and challenges related to FPS and customer agency budget formulation, 
please see GAO's May 2011 report Budget Issues: Better Fee Design Would 
Improve Federal Protective Service's and Federal Agencies' Planning and 
Budgeting for Security (GAO-11-492).

      Questions From Ranking Member Ron Barber for Mark Goldstein

    Question 1. Mr. Goldstein, is there a need to impose a uniform 
physical security screening standard across the Federal Government? 
Also, should the Capitol Hill standard of administering a full 
screening of all personnel and visitors to Federal facilities 
regardless of their security clearance status be adopted?
    Answer. We have not conducted the work necessary to answer this 
question.
    Question 2. What process do agencies and departments use to 
determine which physical screening standards to apply throughout the 
Federal Government?
    Answer. To determine which physical screening measures to implement 
at Federal facilities, Federal agencies generally conduct risk 
assessments. These assessments evaluate the threat, vulnerability, and 
consequence of undesirable events (such as terrorist attacks or other 
acts of violence) occurring at a facility. After the assessments are 
completed, the information is used to determine risk and to recommend 
countermeasures, such as physical screening measures, to mitigate it.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
